<html>
<title> - OUTLOOK FOR THE STATE OF THE U.S. ECONOMY IN 1999</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
           OUTLOOK FOR THE STATE OF THE U.S. ECONOMY IN 1999

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 20, 1999

                               __________

                              Serial 106-3

                               __________

         Printed for the use of the Committee on Ways and Means


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 57-275 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel



Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                                                                   Page

Advisory of January 12, 1999, announcing the hearing.............     2

                                WITNESS

Federal Reserve System, Alan Greenspan, Chairman, Board of 
  Governors......................................................     6

                       SUBMISSION FOR THE RECORD

National Association of Manufacturers, statement.................    45



           OUTLOOK FOR THE STATE OF THE U.S. ECONOMY IN 1999

                              ----------                              


                      WEDNESDAY, JANUARY 20, 1999

                          House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10 a.m., in room 
1100, Longworth House Office Building, Hon. Bill Archer 
(Chairman of the Committee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

FOR IMMEDIATE RELEASE                            CONTACT: (202) 225-1721
January 12, 1999
No. FC-1

                      Archer Announces Hearing on
                          the Outlook for the
                   State of the U.S. Economy in 1999

     Congressman Bill Archer (R-TX), Chairman of the Committee on Ways 
and Means, todayannounced that the Committee will hold a hearing on the
      
    Congressman Bill Archer (R-TX), Chairman of the Committee on Ways 
and Means, today announced that the Committee will hold a hearing on 
the outlook for the state of the U.S. economy in 1999. The hearing will 
take place on Wednesday, January 20, 1999, in the main Committee 
hearing room, 1100 Longworth House Office Building, beginning at 10:00 
a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. The sole 
witness at this hearing will be the Honorable Alan Greenspan, Chairman 
of the Board of Governors of the Federal Reserve System. However, any 
individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The U.S. economy is currently enjoying its best performance during 
the post-war period, with a record-sustained period of full employment 
and low inflation.
      
    The 105th Congress passed bipartisan legislation, the Balanced 
Budget Act of 1997 (P.L. 105-33) and the Taxpayer Relief Act of 1997 
(P.L. 105-34), aimed at reducing the budget deficit and encouraging 
economic growth. As a result of this bipartisan legislation and the 
strong performance of the economy, the Federal Government ended fiscal 
year 1998 with a record $76 billion surplus.
      
    Among the challenges facing the 106th Congress are the approaching 
insolvency of the Social Security system, a growing Federal tax burden, 
and the Asian economic crisis. On January 19th, President Clinton is 
scheduled to give his annual State of the Union address to the nation.
      
    In announcing the hearing, Chairman Archer stated: ``The nation's 
economy continues to be strong, in no small part, due to the bipartisan 
policies recently passed by the Congress. I'm particularly delighted at 
our success in turning the Federal budget deficit into a surplus. As 
the Committee begins this year's efforts to save Social Security, cut 
taxes, and promote further economic growth, the opinions of Chairman 
Greenspan on the state of the economy and its future prospects will be 
especially important. I look forward to hearing his views.''
      

FOCUS OF THE HEARING:

      
    The Committee expects to receive testimony on the state of the 
economy and the outlook for future economic performance from the 
Honorable Alan Greenspan, Chairman of the Federal Reserve.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Wednesday, 
February 3, 1999, to A.L. Singleton, Chief of Staff, Committee on Ways 
and Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Committee office, room 1102 Longworth House Office 
Building, by close of business the day before the hearing.
      

 FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be typed in single space on legal-size paper and may not exceed a total 
of 10 pages including attachments. At the same time written statements 
are submitted to the Committee, witnesses are now requested to submit 
their statements on an IBM compatible 3.5-inch diskette in ASCII DOS 
Text or WordPerfect 5.1 format. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, full address, a telephone number where the witness or the 
designated representative may be reached and a topical outline or 
summary of the comments and recommendations in the full statement. This 
supplemental sheet will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at `HTTP://WWW.HOUSE.GOV/WAYS__MEANS/'.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Archer. The Committee will come to order. The 
Chair would ask all of our guests to take seats.
    Good morning and welcome to our first hearing of the year 
with our special guest, Chairman of the Federal Reserve Board, 
Alan Greenspan.
    Mr. Chairman, you have not been before our Committee since 
December 18, 1991. That is too long a period of time.
    Mr. Greenspan. I observe the economy seems to have done 
exceptionally well since.
    Chairman Archer. But you have not been in absentia as this 
economy has grown, and you have made an enormous contribution 
to the growth of the economy and the reduction of inflation and 
unemployment. But welcome back. We are honored to have you with 
us today. I think you already know of my high regard for you as 
well as my warm personal friendship with you. We look forward 
to hearing your views on the economy.
    I intend for this to be a very busy and productive year for 
the Committee on Ways and Means. We look forward to advancing 
an agenda to secure America's future, and it will be built 
around four items: Strengthening Social Security, improving 
education, providing tax relief, and rebuilding our national 
defense. I would hope that we would be able to add a fifth 
item, which is paying down the national debt.
    This Congress has much to be proud of. The economy is 
strong and hope is high. More Americans are working now than at 
any time in the last 29 years. Welfare has turned into 
workfare. The budget is in surplus and taxes have been cut. We 
stabilized Medicare and, in a hallmark achievement of this 
Committee, we protected the people from the IRS.
    Last night the President announced his agenda for our 
Nation and it is truly a busy agenda. It is full of new 
spending programs. It promises tax increases and it calls for 
direct government investment in stocks. Sadly, I did not hear 
of any spending cuts.
    The agenda will test our ability to maintain fiscal 
discipline. Instead of using the surplus to pay down the debt 
or provide growth-oriented tax cuts, the White House spends 
every penny of the surplus on more government.
    I believe we must maintain fiscal discipline, and that is 
why I want to use the surplus to save Social Security, cut 
taxes and pay down the debt. Cutting taxes can achieve two 
goals. Tax cuts reduce wasteful spending and promote economic 
growth. The less money people send here, the less money the 
politicians in both parties will have to waste.
    In addition to the tax cuts the House passed last year, I 
hope we can enact growth-oriented tax cuts this year. It is 
vital that America's economy remain the engine that helps pull 
the rest of the world's economies. One look at Brazil and Asia 
tells us how important growth is. We must maintain economic 
growth, and cutting taxes appropriately can help get the job 
done.
    To his credit, Secretary Rubin asked the Japanese to cut 
taxes to foster growth. In America, the Fed cut rates to 
achieve growth. It is in that spirit that I seek to cut taxes.
    Mr. Chairman, you have accomplished much in your career. In 
a fragile economic time, your hand is steady, guiding our 
Nation and shaping our economy. You are a man who puts 
principles before politics and ideas before ambition. That 
should be the hallmark for every Member of Congress. Again, 
welcome here today.
    Please tell us what you want us to hear. But before that, I 
am going to recognize Mr. Rangel for any minority views that he 
might like to make.
    [The opening statement follows:]

Statement of Chairman Bill Archer, Representative in Congress from the 
State of Texas

    Good morning.
    I'm pleased to welcome everyone to our first hearing of the 
year, featuring Federal Reserve Chairman Alan Greenspan.
    Mr. Chairman, you haven't been before our Committee since 
December 18, 1991. Welcome back. We're honored to have you 
here. You already know of my high regard for you and I look 
forward to hearing your views on the economy.
    I intend for this to be a very busy and productive year at 
Ways and Means. I look forward to advancing an agenda to secure 
America's future. Our Congressional agenda will be built around 
four items:
    <bullet> Strengthening Social Security
    <bullet> Improving education
    <bullet> Providing Tax Relief and
    <bullet> Rebuilding our national defense.
    This Congress has much to be proud of. The economy is 
strong and hope is high. More Americans are working now than 
any time in the last twenty-nine years. Welfare has turned into 
workfare, the budget is in surplus, and taxes have been cut. We 
stabilized Medicare and we protected people from the I.R.S.
    Last night, the President announced his agenda for our 
nation. It's a busy agenda. It's full of new spending programs. 
It promises tax increases and it calls for direct government 
investment in stocks. It contains no spending cuts.
    This agenda will test our ability to maintain fiscal 
discipline. Instead of using the surplus to pay down the debt 
or provide growth-oriented tax cuts, the White House spends 
every penny of the surplus on more government.
    I believe we must maintain fiscal discipline and that's why 
I want to use the surplus to save Social Security, cut taxes, 
and pay down the debt.
    Cutting taxes can achieve two goals. Tax cuts reduce 
wasteful spending and they promote economic growth. The less 
money people send here, the less money the politicians--in both 
parties--will have to waste. In addition to the tax cuts the 
House passed last year, I hope we can enact growth-oriented tax 
cuts this year.
    It's vital that America's economy remain the engine that 
helps pull the rest of the world's economies. One look at 
Brazil and Asia tells us how important growth is. We must 
maintain economic growth and cutting taxes can help get the job 
done.
    To his credit, Secretary Rubin asked the Japanese to cut 
taxes to foster growth. In America, the Fed cut rates to 
achieve growth. It's in that spirit that I seek to cut taxes.
    Mr. Greenspan, you have accomplished much in your career. 
In a fragile economic time, your hand is steady, guiding our 
nation and shaping our economy. You are a man who puts 
principles before politics and ideas before ambition. Again, 
welcome here today and say what you want us to hear.
      

                                <F-dash>


    Mr. Rangel. Thank you, Mr. Chairman. Let me join with you, 
Chairman Archer, in welcoming Chairman Greenspan here and in 
thanking you, not only for the Committee Members and the 
Congress but for the American people, for the leadership that 
you have demonstrated. We owe you so much for the healthy 
condition of our economy.
    I had really hoped when the Chairman started, that in 
lauding you, it would have been the beginning of a new era of 
bipartisanship. And certainly, if I was in the majority with a 
five-member vote margin, I would have been much kinder to the 
President than the Chairman appeared to be. But maybe that is 
why you haven't been to this Committee that often, because you 
have managed to stay far away from the partisanship that we 
have in the House. In any event, no matter how much we may 
differ on this Committee, we all agree that you have done a 
wonderful job.
    Mr. Chairman, while the President has not given us a Social 
Security bill, he has responded to your request that you have a 
framework for all of us, Democrats and Republicans, to work 
with, not only for Social Security and Medicare, but also to 
encourage savings by our low-income people and, of course, to 
give incentives for education to make certain that most of our 
citizens will become productive. Whether you want to give tax 
cuts at the expense of Social Security is not an issue to 
discuss at the moment.
    Let us join together and welcome Chairman Greenspan for his 
remarkable leadership. And you can depend that no matter what 
our differences are, we will still come together to greet you 
and to follow your leadership.
    Thank you, Mr. Chairman.
    Chairman Archer. Thank you, Mr. Rangel. The Chair accepts 
your partisan comments.
    [The opening statement of Mr. Ramstad follows:]

Statement of Hon. Jim Ramstad, a Representative in Congress from the 
State of Minnesota

    Mr. Chairman, thank you for inviting Chairman Greenspan to 
address this committee on the state of the economy and the 
economic outlook for 1999.
    We are currently experiencing a nearly unprecedented 
vibrant economy, with record-length peacetime economic 
expansion, low unemployment, low inflation, low interest rates 
and the welcome phenomenon of a budget surplus. A recent poll 
indicated that 81% of Americans believe our nation is on the 
right track.
    Certainly, America's thriving businesses deserve much of 
the credit for our current prosperity. But so does sound 
monetary policy and the bipartisan legislation of the last 
Congress that restrained spending and stimulated economic 
growth through tax cuts.
    Still, at a time when American families should be reaping 
the benefits of economic prosperity, too much of their earnings 
are being eaten by federal taxes. Federal tax revenues are 
increasing at a rate of 8%--far above America's rate of 
economic growth. And federal taxes as a percentage of GDP 
exceed 20%--their highest level since World War II.
    Because this committee may be making many decisions this 
year that will have a lasting impact on our economy--including 
tax policy, trade and social security reform--I am grateful we 
will have the benefit of Chairman Greenspan's testimony today.
    Thank you, Mr. Chairman.
      

                                <F-dash>


    Chairman Archer. Mr. Greenspan, you may proceed.

  STATEMENT OF ALAN GREENSPAN, CHAIRMAN, BOARD OF GOVERNORS, 
                     FEDERAL RESERVE SYSTEM

    Mr. Greenspan. Thank you. First let me say I thank both of 
you for your very kind remarks, and I take that as an 
invitation to have me back somewhat more often, or maybe not 
after you hear what I have to say today.
    Members of the Committee, the American economy through 
yearend continued to perform in an outstanding manner. Economic 
growth remained solid and financial markets, after freezing up 
temporarily following the Russian default, are again channeling 
an ample flow of capital to businesses and households. Labor 
markets have remained quite tight, but, to date, this has 
failed to ignite the inflationary pressures that many had 
feared.
    To be sure, there is decided softness in a number of 
manufacturing industries, as weakness in many foreign economies 
has reduced demand for U.S. exports and intensified competition 
from imports. Moreover, the underutilized production capacity 
and pressure on the domestic profit margins, especially among 
manufacturers, are likely to rein in the rapid growth of new 
capital investment. With corporations already relying 
increasingly on borrowing to finance capital investment, any 
evidence of a marked slowing in corporate cash flow is likely 
to induce a relatively prompt review of capital budgets.
    The situation in Brazil and its potential for spilling over 
to reduce demand in other emerging market economies also 
constitutes a possible source of downside risk for demand in 
the United States. So far, markets seem to have reacted 
reasonably well to the decisions by the Brazilian authorities 
to float their currency and redouble efforts at fiscal 
discipline. But followthrough in reducing budget imbalances and 
in containing the effects on inflation of the drop in value of 
the currency will be needed to bolster confidence and to limit 
the potential for contagion to the financial markets and 
economies of Brazil's important trading partners, including the 
United States.
    While there are risks going forward, to date, domestic 
demand and hence employment and output in the United States 
certainly has remained vigorous. Though the pace of economic 
expansion is widely expected to moderate as 1999 unfolds, signs 
of an appreciable slowdown as yet remain scant.
    But to assess the economic outlook properly, we need to 
reach beyond the mere description of America's sparkling 
economic performance of 8 years of record peacetime expansion 
to seek a deeper understanding of the forces that have produced 
it. I want to take a few moments this morning to discuss one 
key element behind our current prosperity--the rise in the 
value markets place on the capital assets of U.S. businesses.
    Lower inflation, greater competitiveness, and the 
flexibility and adaptability of our businesses have enabled 
them to take advantage of a rapid pace of technological change 
to make our capital stock more productive and profitable. I 
will argue that the process of recognizing this greater value 
has produced capital gains in equity markets that have lowered 
the cost of investment in new plant and equipment and spurred 
consumption. But, while asset values are very important to the 
economy and so must be carefully monitored and assessed by the 
Federal Reserve, they are not themselves a target of monetary 
policy. We need to react to changes in financial markets, as we 
did this fall, but our objective is the maximum sustainable 
growth of the U.S. economy, not particular levels of asset 
prices.
    As I have testified before the Congress many times, I 
believe, at root, the remarkable generation of capital gains of 
recent years has resulted from the dramatic fall in inflation 
expectations and associated risk premiums, and broad advances 
in a wide variety of technologies that produced critical 
synergies in the nineties.
    Capital investment, especially in high-tech equipment, has 
accelerated dramatically since 1993, presumably reflecting a 
perception on the part of businesses that the application of 
these emerging technological synergies would engender a 
significant increase in rates of return on new investment.
    Indeed, some calculations support that perception. They 
suggest that the rate of return on capital facilities put in 
place during recent years has in fact moved up markedly. In 
part this may result from improved capital productivity, that 
is, the efficiency of the capital stock. In addition, we may be 
witnessing some payoffs from improved organizational and 
managerial efficiencies of U.S. businesses and from the greater 
education, in school and on the job, that U.S. workers have 
acquired to keep pace with the new technology. All these 
factors have been reflected in an acceleration of labor 
productivity growth.
    Parenthetically, improved productivity probably explains 
why the American economy has done so well despite our oft-cited 
subnormal national saving rate. The profitability of investment 
here has attracted saving from abroad, an attraction that has 
enabled us to finance a current account deficit while 
maintaining a strong dollar. Clearly, we use both domestic 
saving and imported financial capital in a highly efficient 
manner, apparently more efficiently than many, if not most, 
other major industrial countries.
    While discussions of consumer spending often continue to 
emphasize current income from labor and capital as the prime 
source of funds, during the nineties, capital gains, which 
reflect the valuation of expected future incomes, have taken on 
a more prominent role in driving our economy.
    The steep uptrend in asset values of recent years has had 
important effects on virtually all areas of our economy, but 
perhaps most significantly on household behavior. It can be 
seen most clearly in the measured personal savings rate, which 
has declined from almost 6 percent in 1992 to effectively zero 
today.
    Arguably, the average household does not perceive that its 
saving has fallen off since 1992. In fact, the net worth of the 
average household has increased by nearly 50 percent since the 
end of 1992, well in excess of the gains of the previous 6 
years. Households have been accumulating resources for 
retirement or for a rainy day, despite very low measured saving 
rates.
    The resolution of this seeming dilemma illustrates the 
growing role of rising asset values in support of personal 
consumption expenditures in recent years. Economists have long 
recognized a ``wealth effect,'' a tendency for consumption to 
rise by a fraction of the capital gains on existing assets 
owned by households, though the magnitude of this effect 
remains difficult to estimate accurately.
    We have some evidence from recent years that all or most of 
the decline in the saving rate is accounted for by the upper 
income quintile where the capital gains have disproportionately 
accrued, which suggests that the wealth effect has been real 
and significant. Thus, all else equal, a flattening of stock 
prices would likely slow the growth of spending, and a decline 
in equity values, especially a severe one, could lead to a 
considerable weakening of consumer demand.
    Some moderation in economic growth, however, might be 
required to sustain the expansion. Through the end of 1998, the 
economy continued to grow more rapidly than can be currently 
accommodated on an ongoing basis, even with higher, technology-
driven, productivity growth. Growth has continued to shrink the 
pool of workers willing to work but without jobs. While higher 
productivity has helped to keep labor cost increases in check, 
it cannot be expected to do so indefinitely in ever tighter 
labor markets.
    Despite brisk demand and improved productivity growth, 
corporate profits have sagged over recent quarters. This is 
attributable in part to some acceleration in labor 
compensation, but other factors have been pressing, especially 
intensified competition and lower prices facing our exporters 
and those industries competing with imports.
    In these circumstances, businesses will feel under 
considerable pressure to preserve profit margins should labor 
costs accelerate further, or should the falling prices of 
commodity inputs, like oil, turn around. But to date, 
businesses' evident pricing power has been scant. Either that 
will change and inflation could begin to mount or, if costs 
could not be recouped, capital outlays might well be cut back.
    The recent behavior of profits also underlines the unusual 
nature of the rebound in equity prices and the possibility that 
the recent performance of the equity markets will have 
difficulty in being sustained. The level of equity prices would 
appear to envisage substantially greater growth of profits than 
has been experienced of late.
    Moreover, the impressive capital gains of recent years 
would seem also to rest on a perception of relatively low risk 
in corporate ownership. Risk aversion and uncertainty rose 
sharply over the late summer and fall of 1998 following the 
Russian default in mid-August, as evidenced by widening spreads 
among yields on debt of differing credit qualities and 
liquidity. The rise in uncertainty increased the discounting of 
claims on future incomes, and that reduced stock market prices 
even as the long-term earnings growth expectations of security 
analysts continued to rise. As risk aversion subsided after 
mid-October, stock prices returned to record levels.
    Markets have doubtless stabilized significantly after the 
turbulence of last fall, but they remain fragile, as the 
repercussions of the recent Brazilian devaluation attest. 
Moreover, our chronic current account deficit has widened 
significantly, in part reflecting the strength of domestic 
demand that has accompanied the further accumulation of capital 
gains. The continued increase in our net external debt and its 
growing servicing costs clearly are not sustainable 
indefinitely.
    In light of the importance of financial markets in the 
economy, and of the volatility and vulnerability in financial 
asset prices more generally, policymakers must continue to pay 
particular attention to these markets. The Federal Reserve's 
easing last fall responded to an abrupt stringency in financial 
markets and the effects that the consequent increased risk 
aversion was likely to have on economic activity going forward.
    We were particularly concerned about higher costs and 
disrupted financing in debt markets, where much of consumption 
and investment is funded. We were not attempting to prop up 
equity prices, nor did we plan to continue to ease rates until 
equity prices recovered, as some have erroneously inferred.
    This has not been, and is not now, our policy or intent. As 
I have discussed earlier, movements in equity prices can play 
an important role in the economy which the central bank must 
take into account. And, we may question from time to time 
whether asset prices may not embody a more optimistic outlook 
than seems reasonable, or what the consequences might be of a 
further rise in those prices followed by a steep decline. But 
many other forces also drive our economy, and it is the 
performance of the entire economy that forms our objectives and 
shapes our actions.
    Nonetheless, in the current state of financial markets, 
policymakers are going to have to be particularly wary of 
actions that unnecessarily sow uncertainties, undermine 
confidence, and interfere with the efficient allocation of 
capital on which our economic prosperity and asset values rest. 
It is important not to undermine the highly sensitive ongoing 
process of reallocation of capital from less to more productive 
uses.
    For productivity and standards of living to grow, not only 
must capital raised in markets be allocated efficiently, but 
internal cash flow, including the depreciation charges from the 
existing capital stock, must be continuously directed to their 
most profitable uses. It is this continuous churning, this so-
called creative destruction, that has become so essential to 
the effective deployment of advanced technologies by this 
country over recent decades. In this regard, drift toward 
protectionist trade policies, which are always so difficult to 
reverse, is a much greater threat than is generally understood.
    It is well known that erecting barriers to the free flow of 
goods and services across national borders undermines the 
division of labor and standards of living by impeding the 
adjustment of the capital stock to its most productive uses. 
Not so well understood, in my judgment, is the impact that fear 
of growing protectionism would have on profit expectations and 
hence on the current values of capital assets. Protectionism 
was a threat to standards of living when capital asset values 
were low relative to income. It becomes particularly pernicious 
in an environment, such as today's, when that is no longer the 
case.
    In sum, Mr. Chairman, it has been the ability of our 
flexible and innovative businesses and work force that has 
enabled the United States to take full advantage of emerging 
technologies to produce greater growth and higher asset values. 
Policy has facilitated this process by containing inflation and 
by promoting competitiveness through deregulation and an open 
global trading system. Our task going forward, at the Federal 
Reserve as well as in the Congress and administration, is to 
sustain and strengthen these policies, which in turn have 
sustained and strengthened our now record peacetime economic 
expansion.
    Mr. Chairman, I have excerpted from my full text and would 
ask that the text be included in the record.
    [The prepared statement follows:]

Statement of Hon. Alan Greenspan, Chairman, Board of Governors, Federal 
Reserve System

    The American economy through year-end continued to perform 
in an outstanding manner. Economic growth remained solid, and 
financial markets, after freezing up temporarily following the 
Russian default, are again channeling an ample flow of capital 
to businesses and households. Labor markets have remained quite 
tight, but, to date, this has failed to ignite the inflationary 
pressures that many had feared.
    To be sure, there is decided softness in a number of 
manufacturing industries as weakness in many foreign economies 
has reduced demand for U.S. exports and intensified competition 
from imports. Moreover, underutilized production capacity and 
pressure on domestic profit margins, especially among 
manufacturers, are likely to rein in the rapid growth of new 
capital investment. With corporations already relying 
increasingly on borrowing to finance capital investment, any 
evidence of a marked slowing in corporate cash flow is likely 
to induce a relatively prompt review of capital budgets.
    The situation in Brazil and its potential for spilling over 
to reduce demand in other emerging market economies also 
constitute a possible source of downside risk for demand in the 
United States. So far, markets seem to have reacted reasonably 
well to the decisions by the Brazilian authorities to float 
their currency and redouble efforts at fiscal discipline. But 
follow through in reducing budget imbalances and in containing 
the effects on inflation of the drop in value of the currency 
will be needed to bolster confidence and to limit the potential 
for contagion to the financial markets and economies of 
Brazil's important trading partners, including the United 
States.
    While there are risks going forward, to date domestic 
demand and hence employment and output in the United States 
certainly has remained vigorous. Though the pace of economic 
expansion is widely expected to moderate as 1999 unfolds, signs 
of an appreciable slowdown as yet remain scant.
    But to assess the economic outlook properly, we need to 
reach beyond the mere description of America's sparkling 
economic performance of eight years of record peacetime 
expansion to seek a deeper understanding of the forces that 
have produced it. I want to take a few moments this morning to 
discuss one key element behind our current prosperity--the rise 
in the value markets place on the capital assets of U.S. 
businesses. Lower inflation, greater competitiveness, and the 
flexibility and adaptability of our businesses have enabled 
them to take advantage of a rapid pace of technological change 
to make our capital stock more productive and profitable. I 
will argue that the process of recognizing this greater value 
has produced capital gains in equity markets that have lowered 
the cost of investment in new plant and equipment and spurred 
consumption. But, while asset values are very important to the 
economy and so must be carefully monitored and assessed by the 
Federal Reserve, they are not themselves a target of monetary 
policy. We need to react to changes in financial markets, as we 
did this fall, but our objective is the maximum sustainable 
growth of the U.S. economy, not particular levels of asset 
prices.
    As I have testified before the Congress many times, I 
believe, at root, the remarkable generation of capital gains of 
recent years has resulted from the dramatic fall in inflation 
expectations and associated risk premiums, and broad advances 
in a wide variety of technologies that produced critical 
synergies in the 1990s.
    Capital investment, especially in high-tech equipment, has 
accelerated dramatically since 1993, presumably reflecting a 
perception on the part of businesses that the application of 
these emerging technological synergies would engender a 
significant increase in rates of return on new investment.
    Indeed, some calculations support that perception. They 
suggest that the rate of return on capital facilities put in 
place during recent years has, in fact, moved up markedly. In 
part this may result from improved capital productivity--that 
is, the efficiency of the capital stock. In addition, we may be 
witnessing some payoffs from improved organizational and 
managerial efficiencies of U.S. businesses and from the greater 
education--in school and on the job--that U.S. workers have 
acquired to keep pace with the new technology. All these 
factors have been reflected in an acceleration of labor 
productivity growth.
    Parenthetically, improved productivity probably explains 
why the American economy has done so well despite our oft-cited 
subnormal national saving rate. The profitability of investment 
here has attracted saving from abroad, an attraction that has 
enabled us to finance a current account deficit while 
maintaining a strong dollar. Clearly, we use both domestic 
saving and imported financial capital in a highly efficient 
manner, apparently more efficiently than many, if not most, 
other major industrial countries.
    While discussions of consumer spending often continue to 
emphasize current income from labor and capital as the prime 
sources of funds, during the 1990s, capital gains, which 
reflect the valuation of expected future incomes, have taken on 
a more prominent role in driving our economy.
    The steep uptrend in asset values of recent years has had 
important effects on virtually all areas of our economy, but 
perhaps most significantly on household behavior. It can be 
seen most clearly in the measured personal saving rate, which 
has declined from almost six percent in 1992 to effectively 
zero today.
    Arguably, the average household does not perceive that its 
saving has fallen off since 1992. In fact, the net worth of the 
average household has increased by nearly 50 percent since the 
end of 1992, well in excess of the gains of the previous six 
years. Households have been accumulating resources for 
retirement or for a rainy day, despite very low measured saving 
rates.
    The resolution of this seeming dilemma illustrates the 
growing role of rising asset values in supporting personal 
consumption expenditures in recent years. It also illustrates 
the importance when interpreting our official statistics of 
taking account of how they deal with changes in asset values.
    With regard first to the statistical issues, capital gains 
themselves are not counted as income, but some transactions 
resulting from capital gains reduce disposable household income 
as we measure it, while having no effect on consumption. As a 
consequence, as capital gains and these associated transactions 
mount, published saving rates are decreased. For example, 
reported personal income is reduced when corporations cut back 
payments into defined-benefit pension plans owing to higher 
equity prices; however, such reductions do not diminish 
anticipated retirement income and thus should not lower 
consumption. And reported disposable income is decreased when 
households pay taxes on capital gains realizations that would 
not have been so large in less ebullient markets. However, 
capital gains tax payments also are highly unlikely to be 
associated with lower spending because the cash realized from 
the sale of the asset exceeds the tax, and in most cases the 
typical household presumably does not perceive of this 
transaction as reducing available income or financial 
resources. Together these two effects probably account for an 
appreciable portion of the reduction in the reported saving 
rate.
    But beyond these statistical issues, there is little doubt 
that capital gains have increased consumption relative to 
income from current production over recent years. Economists 
have long recognized a ``wealth effect''--a tendency for 
consumption to rise by a fraction of the capital gains on 
existing assets owned by households--though the magnitude of 
this effect remains difficult to estimate accurately. We have 
some evidence from recent years that all or most of the decline 
in the saving rate is accounted for by the upper income 
quintile where the capital gains have disproportionately 
accrued, which suggests that the wealth effect has been real 
and significant. Thus, all else equal, a flattening of stock 
prices would likely slow the growth of spending, and a decline 
in equity values, especially a severe one, could lead to a 
considerable weakening of consumer demand.
    Some moderation in economic growth, however, might be 
required to sustain the expansion. Through the end of 1998, the 
economy continued to grow more rapidly than can be currently 
accommodated on an ongoing basis, even with higher, technology-
driven productivity growth. Growth has continued to shrink the 
pool of workers willing to work but without jobs. While higher 
productivity has helped to keep labor cost increases in check, 
it cannot be expected to do so indefinitely in ever tighter 
labor markets.
    Despite brisk demand and improved productivity growth, 
corporate profits have sagged over recent quarters. This is 
attributable in part to some acceleration in labor 
compensation, but other factors have also been pressing, 
especially intensified competition and lower prices facing our 
exporters and those industries competing with imports. In these 
circumstances, businesses will feel under considerable pressure 
to preserve profit margins should labor costs accelerate 
further, or should the falling prices of commodity inputs, like 
oil, turn around. But, to date, businesses' evident pricing 
power has been scant. Either that would change and inflation 
could begin to mount or, if costs could not be recouped, 
capital outlays might well be cut back.
    The recent behavior of profits also underlines the unusual 
nature of the rebound in equity prices and the possibility that 
the recent performance of the equity markets will have 
difficulty in being sustained. The level of equity prices would 
appear to envision substantially greater growth of profits than 
has been experienced of late.
    Moreover, the impressive capital gains of recent years 
would seem also to rest on a perception of relatively low risk 
in corporate ownership. Risk aversion and uncertainty rose 
sharply over the late summer and fall of 1998 following the 
Russian default in mid-August, as evidenced by widening spreads 
among yields on debt of differing credit qualities and 
liquidity. The rise in uncertainty increased the discounting of 
claims on future incomes, and that reduced stock market prices 
even as the long-term earnings growth expectations of security 
analysts continued to rise. As risk aversion subsided after 
mid-October, stock prices returned to record levels.
    Markets have doubtless stabilized significantly after the 
turbulence of last fall but they remain fragile, as the 
repercussions of the recent Brazilian devaluation attest. 
Moreover, our chronic current account deficit has widened 
significantly, in part reflecting the strength of domestic 
demand that has accompanied the further accumulation of capital 
gains. The continued increase in our net external debt and its 
growing servicing costs clearly are not sustainable 
indefinitely.
    In light of the importance of financial markets in the 
economy, and of the volatility and vulnerability in financial 
asset prices more generally, policymakers must continue to pay 
particular attention to these markets. The Federal Reserve's 
easing last fall responded to an abrupt stringency in financial 
markets and the effects that the consequent increased risk 
aversion was likely to have on economic activity going forward. 
We were particularly concerned about higher costs and disrupted 
financing in debt markets, where much of consumption and 
investment is funded. We were not attempting to prop up equity 
prices, nor did we plan to continue to ease rates until equity 
prices recovered, as some have erroneously inferred.
    This has not been, and is not now, our policy or intent. As 
I have discussed earlier, movements in equity prices can play 
an important role in the economy, which the central bank must 
take into account. And, we may question from time to time 
whether asset prices may not embody a more optimistic outlook 
than seems reasonable, or what the consequences might be of a 
further rise in those prices followed by a steep decline. But 
many other forces also drive our economy, and it is the 
performance of the entire economy that forms our objectives and 
shapes our actions.
    Nonetheless, in the current state of financial markets, 
policymakers are going to have to be particularly wary of 
actions that unnecessarily sow uncertainties, undermine 
confidence, and interfere with the efficient allocation of 
capital on which our economic prosperity and asset values rest. 
It is important not to undermine the highly sensitive ongoing 
process of reallocation of capital from less to more productive 
uses. For productivity and standards of living to grow, not 
only must capital raised in markets be allocated efficiently, 
but internal cash flow, including the depreciation charges from 
the existing capital stock, must be continuously directed to 
their most profitable uses. It is this continuous churning, 
this so-called creative destruction, that has become so 
essential to the effective deployment of advanced technologies 
by this country over recent decades. In this regard, drift 
toward protectionist trade policies, which are always so 
difficult to reverse, is a much greater threat than is 
generally understood.
    It is well known that erecting barriers to the free flow of 
goods and services across national borders undermines the 
division of labor and standards of living by impeding the 
adjustment of the capital stock to its most productive uses. 
Not so well understood, in my judgment, is the impact that fear 
of growing protectionism would have on profit expectations, and 
hence on the current values of capital assets. Protectionism 
was a threat to standards of living when capital asset values 
were low relative to income. It becomes particularly pernicious 
in a environment, such as today's, when that is no longer the 
case.
    In sum, it has been the ability of our flexible and 
innovative businesses and work force that has enabled the 
United States to take full advantage of emerging technologies 
to produce greater growth and higher asset values. Policy has 
facilitated this process by containing inflation and by 
promoting competitiveness through deregulation and an open 
global trading system. Our task going forward--at the Federal 
Reserve as well as in the Congress and Administration--is to 
sustain and strengthen these policies, which in turn have 
sustained and strengthened our now record peacetime economic 
expansion.
      

                                <F-dash>


    Chairman Archer. Without objection, the Chairman's entire 
statement will be printed in the record.
    I think you have given us a lot to think about. Certainly a 
very, I think, solid analysis of where we are, and perhaps a 
few little guidelines in nuance form as to where we might go or 
what we might do.
    I would like to ask your opinion of a major part of the 
President's proposal for Social Security last night, where he 
proposed letting the government invest the Social Security 
Trust Fund surplus in private financial markets. You testified, 
I believe, last July before the Senate Committee on Banking and 
Financial Services and were asked about such a proposal in 
generalities. I believe you said that you thought that would be 
very dangerous, and added, ``I don't know any way you can 
essentially insulate government decisionmakers from having 
access to what will amount to very large investments in 
American private industry.''
    And so my question to you today is whether you still feel 
the way you did when you testified before the Senate Committee 
on Banking and Financial Services as to the wisdom of 
government-controlled investments in the market?
    Mr. Greenspan. Mr. Chairman, let me just say first that the 
notion that the President brought forth last night to 
effectively keep a very large part of the unified surplus in 
place in the years ahead is something which I have supported in 
the past. What I do not support and did not support previously 
was the investment of government funds, especially Social 
Security Trust Funds, in private securities, especially 
equities.
    There are really two reasons for that. One is that despite 
the Herculean efforts of a number of very thoughtful people to 
try to find ways to insulate the use of those Trust Funds, 
which would be extraordinarily large--in the trillions of 
dollars--the ability to insulate that, in my judgment, is 
virtually impossible.
    The political process of which we are all aware, and I 
would certainly expect that those on the panel know far more 
about this than I, makes it very difficult not to try to create 
some form of direction in the way those funds are invested. 
Indeed, our experience with State and local pension funds very 
graphically exhibits that.
    Indeed numerous studies over the years have shown that the 
average rate of return on State and local funds is usually 2, 
maybe 3 percentage points lower on average than private pension 
funds of comparable nature. There are also studies which 
suggest that the greater the proportion of trustees who are 
political appointees on those pension funds, the lower the rate 
of return. And indeed, I don't think it is very difficult to go 
through example after example of the endeavors on the part of 
the political system to employ those funds in ways which are 
other than what the private market itself will adjust to.
    The reason this is important is in fact a reason similar to 
what I was discussing with respect to the allocation of capital 
generally. Our extraordinary performance in this country, our 
ability to adapt to the new technologies in such an effective 
way, has enabled us to use our capital in an extraordinarily 
efficient manner, and that flows through directly into higher 
productivity, higher real wages, and a higher standard of 
living.
    If we are going to take a very substantial part of our 
savings, and that is what would occur if a substantial part of 
Social Security Trust Fund was employed in that manner, in my 
judgment we will lower the capital efficiency of this country. 
We will lower the thrust of productivity growth and standards 
of living. So it is not a mere financial accounting issue. It 
gets down to real goods and services and real standards of 
living.
    Because I do not believe that it is politically feasible to 
insulate such huge funds from governmental direction, I am 
fearful that we will use those assets in a way which, one, will 
create a lower rate of return for Social Security recipients; 
but of even greater concern, that it will create suboptimal use 
of our capital resources and those assets which create our 
standard of living.
    Now, to be sure, the President's recommendation is only a 
small part of Social Security. Had he eliminated the particular 
private investment characteristic of that program, I would have 
found what he said with respect to Social Security last night 
quite important and, in a sense, a definite factor in improving 
the underlying savings rate in this country, which because of 
the demographic changes that are occurring, is going to be 
required if we are to get an overall retirement system, both 
public and private, functioning in a manner which we have been 
accustomed to.
    Chairman Archer. I thank you for that comment. I must say 
that I don't think any of us fully understands the technical 
details of the President's proposal yet.
    Mr. Greenspan. Actually, he did not give any. What he 
basically stipulated, which was, in my judgment something 
important, is essentially that rather than allow the surpluses 
to be dissipated, they are going to be employed of necessity, 
because that is what will happen if you run a significant 
unified budget surplus, to reduce the debt to the public. And I 
am one of those who believes that if we are looking at the 
long-term stability of capital investment and productivity in 
this country, if we can significantly reduce the outstanding 
debt and indeed, in the current environment, create unified 
budget surpluses, in my judgment that is all to the good.
    I do not believe the President said that the surpluses are 
going to be used to increase benefit payments or anything else 
of that nature, although he did refer obviously to the use of 
the non-Social Security part of it. But it is important to 
distinguish between allowing these surpluses to run and observe 
their impact on the borrowing from the public, which I think 
will be very important and positive, and realize that that is 
an important aspect of trying to increase the national savings 
rate, which is important.
    And I don't want to comment on other aspects of the 
President's program, but I think we ought to recognize that 
what this is is not a detailed Social Security program. What it 
is is a statement that the Social Security system, whether it 
is privatized or not, ought to move far closer to full funding, 
because pay-as-you-go Social Security, because of the 
demographic changes that are in the process of emerging, is not 
something which can continue to function in the years ahead as 
it has done so well in the past.
    Chairman Archer. Well, I certainly agree with that.
    Let me state that my position relative to a Social Security 
solution is that I will oppose government-managed investment in 
the private sector, for the very reasons that you mentioned and 
others, although you articulate it probably better than I do.
    But I will welcome any suggestions that the President might 
have relative to the establishment of personal security 
accounts that will create advanced savings to reduce the drain 
on the Social Security fund in the outyears. There is a very 
big difference, in my opinion, between giving individual 
workers the power to invest their money and having the 
government control investments.
    Let me ask you this question, just as a followup. If in 
fact we take money out of the Social Security fund, and we 
don't know yet what percentage the President is going to 
recommend, and we invest it in the private sector, will we not 
then be investing in--will we not then fail to invest in 
government bonds, which means that that debt will have to be 
owned by the public or the private sector rather than within-
house? So we don't change the amount of debt that the Federal 
Government has as an obligation, do we?
    Mr. Greenspan. Mr. Chairman, maybe the best way to explain 
this is to start with the presumption that there is no 
investment in private securities, and all that is done is allow 
the unified budget surplus to spill over into the Social 
Security Trust Fund. That is a bookkeeping, intragovernmental 
bookkeeping, transaction which has no effect on borrowing from 
the public, no effect on national savings, and no effect on 
government savings.
    If, however, you use part of those funds to invest in 
private securities, in effect you are borrowing from the public 
and investing those funds in private securities. The effect of 
that is clearly to increase the total debt to the public, but 
it is offset, presumably dollar for dollar, with new assets 
that the government has accumulated. So in one sense it doesn't 
affect the savings rate overall, but it does affect the 
relationship between private and public savings. But you are 
quite right, it does require that the debt to the public be 
higher than it would otherwise be, because of the way our 
system is set up.
    Chairman Archer. Well, I learned in 1982, along with you, a 
lot about Social Security when we served together on the 
Commission President Reagan created. Based on your overall 
expertise, as well as your knowledge of Social Security, do you 
have a preferred approach as to how we should attempt to solve 
the Social Security problem?
    Mr. Greenspan. Well, Mr. Chairman, I have always been 
strongly in favor of a private approach. And the reason I have 
been is not because of the increased rates of return on private 
securities, which unless you increase the national savings rate 
when you do that, is a zero sum game. It merely reduces the 
rate of return in private pension funds. The reason I favor 
private funds is that I believe we have a far greater chance of 
creating full funding and hence higher savings rates through 
that vehicle than we would through the political system, which 
I regret exhibits a far higher propensity to spend than to 
save.
    Chairman Archer. Given a choice between spending the 
surplus on more government programs and using it to provide 
growth-oriented tax cuts, would you have a preference?
    Mr. Greenspan. Well, as I have said previously, my first 
preference is to allow the surpluses to run for a while and 
unwind a good deal of the debt to the public which we have 
accumulated over the years. Failing that, meaning if my 
concerns about the propensity to spend are more real than not, 
I would clearly prefer that if we can't run the surpluses, if 
we have to get rid of the surpluses, I would far prefer 
reducing taxes than increasing spending. And, indeed, I don't 
think it is a close call.
    Chairman Archer. Thank you very much.
    Mr. Rangel?
    Mr. Rangel. Thank you, Mr. Chairman.
    We are fortunate that the President was not arrogant enough 
to give us a bill with details. He recognizes that that 
responsibility is in the hands of the Congress, and he did what 
many of us demanded. He gave a framework for us to review and, 
in a bipartisan way, which I think he stressed last night, to 
come together with some type of plan that is not a Republican 
plan nor a Democratic plan, but one that responds to the aging 
of the baby boomers and longer life expectancy.
    You advocate, if we cannot reduce the public debt, that 
rather than spending more, that we have a tax cut. And there is 
a lot of talk, especially last night, about a $600 billion tax 
cut that may be recommended to this Committee.
    Given the option of taking the surplus for a tax cut, or 
following the suggestion that we better prepare the Social 
Security system for its future obligation to the growing aging 
population, as well as Medicare, what is your recommendation: 
follow the framework of the President, to shore up the Social 
Security system and the Medicare system with the surplus, or 
move now toward a $600 billion tax cut?
    Mr. Greenspan. Well, Congressman, as I said before, I 
prefer letting the surpluses run. And the reason I do is that 
we have been used to a really quite highly supported pay-as-
you-go Social Security system and indeed, a Medicare system. 
And the reason that the popularity has been really quite 
impressive is that until very recently the rates of return to 
individual recipients, meaning the amounts of money that they 
received as benefits, far exceeded the amount of taxes plus 
interest they and their employers put in.
    As the ratio of workers to retirees decreases, in part 
because of increased longevity, the ability to continue that 
process is rapidly diminishing, short of a very large increase 
in immigration which would offset the retiree-worker ratio.
    But if that is not forthcoming, then instead of retirees 
effectively getting a reallocation of physical resources from 
current workers, they will have to be able to put in place 
investments which will return the real resources that they need 
for retirement because they will not be available from workers 
in the outyears. There will be just too few of them.
    So the only way you can do that, short of an immigration 
bulge, is to find a way to get increased productiveness in the 
economy. And the way that we know which is most assuredly going 
to do that is increased savings effectively invested in real 
capital-productive assets which will produce the goods and 
services that the retiree will need in, say, the year 2010, 
2030, or thereafter.
    So as far as I can see, if one is looking at the long-term 
focus of the American economy, we do not have any choice but to 
find a means to replace the pay-as-you-go system, because 
demographics are immutable and effectively irreversible. And 
what that tells us is that we cannot go on the way we are. The 
arithmetic becomes impossible sooner rather than later.
    And I might add, that is the reason why our younger 
generations are turned off on Social Security, because what 
they see, correctly, is that the rate of return that they will 
achieve on their payments of taxes and their employers' taxes 
is very low, especially compared to what you could now get even 
in a U.S. Treasury bond. That compares with what their parents 
were able to get, which was really a quite impressive above-
market rate of return.
    We have to focus on that phenomenon. We have to adjust to 
it. The fact that we are looking at 10, 20 years out does not 
mean we can delay, because it is none too soon to start to take 
action. And, therefore, to keep the savings in place as is 
being recommended, is the right decision.
    Mr. Rangel. I can see us thinking that way if we had your 
leadership and that of President Clinton. But in some of our 
past economic experiences, the market really hasn't responded 
as positively as recently. What type of guarantees could the 
individual beneficiary have that the market will be there for 
them when they retire?
    Mr. Greenspan. Well, I am not referring so much to the 
question of whether the market is there. I am talking about the 
amount of saving that has to be put in place in order to 
achieve the capital investment. What I am basically saying is, 
at the current rate of saving and the current expected benefit 
payments which are embodied in the Social Security legislation, 
that we will rapidly run into a dilemma where there will be 
inadequate resources to meet the benefits.
    Indeed, that is part of the so-called 2.2 percent gap in 
the Social Security system that currently exists, or 3.6 
percent on a fully, more than 75-year basis. And it is that 
problem which has got to be addressed sooner rather than later, 
and it has got very little to do with whether the funds are 
invested in equities, bonds, government bonds or anything else.
    Mr. Rangel. Well, the President certainly has given us 
something to work with, that we have been asking for in a 
bipartisan way. But the bottom line is that you would rather 
see the surplus used to reduce our debt, rather than to do the 
political thing, and that is rush now into a gigantic tax cut.
    Mr. Greenspan. I don't know whether it is political. I am 
just telling you what the economics are. The economics, as best 
I can judge, are best served by moving as quickly as we can to 
much closer to full funding for our retirement systems. We 
obviously have it, by definition, in the private sector. We 
need to now move in that direction in the public sector, 
because the demographics are making any alternative impossible.
    Mr. Rangel. Thank you.
    Chairman Archer. Mr. Crane.
    Mr. Crane. Thank you, Mr. Chairman.
    Chairman Greenspan, we are honored with your presence here 
today. I have been a longtime admirer from the beginning of my 
acquaintance with you. I am in awe that you can sit here before 
us and articulate responses when even a casual comment from you 
can have international repercussions, so we appreciate 
profoundly your willingness to do this. I think if I were in 
your shoes, I would put it all in writing and insist that that 
is the only way I will respond.
    Mr. Greenspan. I am willing to do that.
    Mr. Crane. I would like to shift gears just a little bit 
and ask you about something that is also a major component of 
our economy and our worldwide economics. I am referring to 
trade. I am wondering if you could give us an estimate of what 
portion of the annual growth of our economy do you attribute to 
international trade?
    Mr. Greenspan. While it is just a straight statistic where 
we can try to make judgments as to what the division of labor 
across the world does to overall standards of living, it is 
very difficult to put a specific number on it. What we do know 
with a reasonable degree of certainty is that the dramatic 
increase in trade worldwide since the end of World War II, 
which has been far faster than domestic gross product 
increases, has been instrumental in rising standards of living 
everywhere.
    I think it has been a major factor in the United States, 
where the open markets have for many, many decades been a major 
source of business for our exporters, and the imports that 
press in on us have done two things: First, have given us goods 
and services at much lower prices than we would otherwise have 
gotten them, which is the nature of the division of labor; but 
second, it has also pushed us to a competitive edge which I 
don't recall seeing in my long career as an economist, and our 
ability to compete is really impressive.
    Like all of us who are involved in business over the years, 
we don't particularly like competition. I did not like my 
competitors particularly when I was in the private sector. But 
I must admit to you that their pressing on me made me do things 
a lot better and a lot more efficiently. I worked harder and I 
think I turned out a better product.
    That probably is a pretty good description of what this 
country has become, and I must say to you, it is really 
something which is impressive in very many ways. The opening up 
of trade around the world has, in my judgment, been a very 
important factor in contributing to that impressive 
performance.
    Mr. Crane. Would you concur, then, that the renewal of the 
President's fast track negotiating authority is absolutely 
essential to advancing into the future a healthy economy here 
at home, but that it has positive consequences worldwide?
    Mr. Greenspan. I can't comment on whether it is essential, 
but it is very important. And that one should support it, I 
have no question whatever. It is all to our advantage to do 
that.
    Mr. Crane. One other question, since the light is turning 
yellow already. I think that with the problems that Brazil has 
most recently experienced, that there are potential parallels 
to what Mexico went through right after we launched NAFTA. I 
mean within 6 months of their peso devaluation, as you recall, 
they had turned that around in Mexico. And I would argue that a 
big part of that was having that trade relationship with the 
United States and the prohibition against putting the tariff 
walls up around their country as a response.
    I am wondering if you see parallels between that experience 
in Brazil, or what do you anticipate might happen down in South 
America?
    Mr. Greenspan. Each situation is different. The Brazilian 
problem is largely a fiscal problem. The Brazilian private 
economy is a very impressive entity. They have really built up 
a productive structure and a very sophisticated financial 
system, but as a consequence of 20 years of military 
authoritarian rule, they have produced a constitution in 1988 
which effectively, in most people's judgment, probably swung 
the pendulum too much in the other direction, and created 
innumerable benefits embodied in the constitution which 
doubtless exceeded the underlying productive capacity of the 
system to produce.
    Ever since then there has been a major endeavor to unwind 
those excesses, and indeed they are still working on it, and 
there is an important one that is to be debated and, I believe, 
voted upon in the Brazil legislature today. So that it is an 
ongoing process, but it is terribly obvious that there are 
fiscal problems, largely the very large payrolls in their state 
governments and a pension fund system, which is what they are 
voting on today, as well as what turns out to be a very short 
average maturity of their government debt, which means that 
marked increases in short-term interest rates flow through to 
very large increases in interest payments, and that has created 
a vicious cycle.
    They are clearly coming to grips with that issue. It has 
been very difficult. It has been tough, and it certainly has 
not been helped by the international financial system, which 
has run into trouble in the last couple of years, so that the 
Brazilians are fighting not only their own problems but they 
have to do it in the context in which the external environment 
is less beneficent than it was a couple of years ago.
    Mr. Crane. My time has expired. Again, I thank you for 
sharing so generously your time with the Committee.
    Chairman Archer. Mr. Thomas.
    Mr. Thomas. Thank you, Mr. Chairman.
    Thank you for being with us, Chairman Greenspan.
    I have never heard it quite put that way, but it is exactly 
the situation where you talk about current and especially past 
retirees getting a return on their investment greater than 
market return, and part of the problem is we don't have as many 
people paying in, more people taking money out.
    I also agree with your response to the Chairman in regard 
to the Social Security portion of the President's speech last 
night because of the unified budget and where the money would 
be transferred.
    My focus for the very short time I have would be on 
Medicare. As a cochairman of the Medicare Commission we had the 
pleasure of your presence on April 20, 1998, and it 
corresponded almost exactly to the comments that you made today 
about the concerns that you are worried about, one, the 
interference with the efficient allocation of capital and that 
it is important not to undermine the ongoing process of the 
reallocation of capital from less to more productive uses. Your 
thrust was in commenting about the current Medicare system and 
that perhaps the incentive structure is not there to do the 
kinds of productive things that we need to do and that we need 
to look at structural change.
    My concern would be that the President's speech, as opposed 
to Social Security, was very specific on Medicare taking 
general revenue sources and proposing to expand benefits--not 
just try to control the current structure which is going 
bankrupt but to expand benefits through the addition of the 
prescription drug argument out of the general fund, increasing 
the portion of the general fund that goes to Medicare without 
any of the structural reforms that perhaps would make it a more 
competitive model, moving from administered prices to more 
competition.
    Do you have some concerns that if the money from the 
surplus was spent for the Medicare purposes the President 
outlined that it would not be nearly so conducive as the Social 
Security portion because we really need to revise structurally 
Medicare to make it more efficient at the same time that we 
make sure that money is there for future beneficiaries?
    Mr. Greenspan. The Medicare issue is a far more complex one 
than Social Security is. As difficult as we think Social 
Security is, Medicare is a multiple of complexities. Indeed, as 
Chairman Archer probably remembers, in the 1982 Social Security 
Commission we were given the mandate of looking at Medicare if 
we wanted to, and I thought we disposed of that one as quickly 
as anything ever has been done. And the reason is it is very 
tough.
    As you remember, the discussion in the Medicare Commission 
the issue of technology is a terribly crucial one, and it is 
very difficult to forecast technology. And if you can't 
forecast technology, it is very difficult to forecast what the 
actual real dollar burden of the Medicare system is going to 
be.
    So I agree with you in the sense that if you are going to 
spend funds out of the surplus, you reduce the flexibility of 
the overall governmental system, if I can put it that way, to 
address unforeseen Medicare expenses and requirements.
    Mr. Thomas. Do you think that perhaps what we need to do is 
to examine ways in which we can create a self-corrective 
mechanism within Medicare to deal with market forces? And 
certainly, as prices go up, at least you have the comfort that 
it is a less political administered structure than it is a 
response to the real needs of the health care marketplace and 
then it would be a policy decision for us to make as to whether 
we want to put assets into it at the rate that it would 
require.
    Mr. Greenspan. I would agree with that.
    Mr. Thomas. Thank you very much.
    Chairman Archer. Mr. Stark.
    Mr. Stark. Thank you, Mr. Chairman.
    Mr. Greenspan, I admire the work that you are doing to 
ensure a strong economy, but I keep looking at the boats that 
this tide hasn't lifted. I would like to focus on those who 
have not benefited from this great, growing economy.
    A New York Times article this week said that median family 
incomes haven't risen since 1970. The average housewife is 
working 15 more hours a year--15 more weeks a year than she did 
back in the seventies. Ninety percent of the great stock market 
gains have gone to the top 10 percent of our households. Sixty 
percent of Americans don't own any stock. In 20 percent of our 
counties, unemployment exceeds 8 percent. Fifteen million 
children live in poverty, even including their participation in 
social programs. And families headed by females in two out of 
five quintiles have incomes that have declined markedly since 
1983.
    So my question is, what must be done to change or improve 
the private sector or the economy to help the majority of 
Americans who are observing this economic strength from the 
sidelines--not participating in it?
    While we know, I think, what social programs we can 
entertain, those are not supported by the majority. What 
private sector initiatives or changes in the economy could help 
this portion of the American public?
    Mr. Greenspan. Mr. Stark, the best way to describe the 
phenomenon which you are observing is there is just no question 
that the dispersion of income growth or the dispersion of 
income distribution has clearly widened quite significantly in 
the last decade. The last year or two it stopped widening, but 
there has been a very appreciable change in the income 
distribution which appears to be highly correlated with 
technical skills. It is fairly evident that there is a one-to-
one correspondence between abilities to interface with this 
new, advanced technology and the real income that one can earn.
    As a consequence of that evident observation, a remarkably 
large number of people have gone back to school. Indeed, the 
average age of undergraduates in school full-time has gone up 
several years. It is really one of the more startling 
statistics that one can find. Community colleges have burgeoned 
in size, and on-the-job training has gone up very 
substantially. The major thrust of this is coming from all 
income groups pressing one way or another for increased 
education because what has clearly been the case is that the 
obverse of this extraordinary churning in the capital stock to 
which I was referring is that people who are dealing with that 
capital stock, which means just about everybody, feel insecure; 
that is, things are changing in a very rapid way, and you get a 
sense that it is tough to deal with the new technologies, and 
so they are pressing very hard for higher levels of education 
and capacity and ability. In my judgment, that is by far the 
most effective means to bring all of our population into the 
high-tech age and the high-tech values.
    Lacking education I don't see how we can do it, and, as a 
consequence, education, especially on-the-job training, is 
important. There are even in many of the technologically 
advanced corporations little universities in which they take 
the lower skilled people and teach them exactly how to function 
in that complex arena. It has induced a really significant 
increase in their incomes, and I would suggest that anything 
you can do to enhance that is clearly the most effective way 
that I know of to bring a not insignificant part of our 
population which is not doing all that well into the mainstream 
of the high-tech area.
    Mr. Stark. Would the economy be able to absorb a lot more 
people who would acquire such skills?
    Mr. Greenspan. Absolutely. There is no doubt that if those 
people gained increased skills, you create a change in the 
capital structure. You change incentives so the type of capital 
equipment you purchase to take advantage of the fact that those 
skills are there.
    Mr. Stark. Thank you.
    Chairman Archer. Mr. Shaw.
    Mr. Shaw. Thank you, Mr. Chairman.
    And, Chairman Greenspan, I am very pleased that you spent 
so much time this morning in your dialog and in the question 
and answer period in talking about the future of Social 
Security. I was not aware that you were on that special 
Commission some years ago back in the early eighties with 
Chairman Archer, but that certainly makes you a tremendous 
resource in our trying to wade through the ways of saving 
Social Security.
    Looking at Social Security on a global basis in other 
countries, I would say there is a meltdown going on. There is a 
global crisis in other countries, even though there are a few 
that are doing better than we are. Overall, I think there is a 
global crisis on the question of Social Security and our 
various retirement programs all over the globe and especially 
in Europe.
    In trying to develop some of the ideas for solutions, I was 
pleased to see that you do favor some type of privatization, 
although you do not support the President's plan. In fact, I 
don't see a lot of support for what the President put out last 
night. However, I would give the President high marks for 
having opened up the dialog on privatization, because I think 
that was a very necessary step that he took, and I think it is 
going to be very useful.
    But what I want to question you on for just a moment is the 
effect that it would have on the markets, assuming that we set 
it up in a situation, maybe not exactly as the Chilean model 
but somewhat, so that the management of these programs is far 
divorced from and removed from the Federal Government but run 
by the private sector under some very strict guidelines set 
forth by the Congress. What effect will this type of investment 
have upon the marketplace? And if you could expand your answer 
into what effect would it have when people start pulling their 
assets out of those programs, such as the baby boomers which 
will come in large quantities at a future date to buy annuities 
or to come up with some other device for distribution for 
retirement income?
    Mr. Greenspan. Mr. Shaw, it really gets down to the 
question of the impact on equity prices. I assume you are 
talking about the level of stock prices?
    Mr. Shaw. Yes, sir.
    Mr. Greenspan. That occurs as a consequence of who holds 
the claims because if you think in the broadest sense the 
overall market value of stocks in this country should be a 
reflection of the productive capabilities of the assets that 
companies have for which there are claims. While one can make 
arguments that who holds the stock may affect the value of the 
overall structure of American industry, as a first 
approximation, it does not. The technological capability of 
American industry does not depend upon who the shareholders 
are. If that is the case, then you have to get to the question 
as to what is it about the nature of the shareholding that will 
somehow alter what the stock values are.
    One of the things we do know is that if there is less 
volatility in stocks, whatever the capital value capability of 
the corporations are, if stocks fluctuate less and are more 
stable and appear less risky, leaving out their trend, that 
would assume, other things equal, stock prices would be higher.
    The issue of what would happen if a significant part of our 
equities were held by the Social Security Trust Funds is 
indeterminate on the question of their impact on stock prices, 
even leaving aside the issue I raised before about the 
possibility that would be misallocation of capital if you did 
that. The reason I say this is, on the one hand, clearly a 
constant flow of funds from the Social Security Trust Fund 
would be an element of support in the short run and, with other 
things equal, would tend to probably balance out some of the 
fluctuations.
    But it is not clear that other areas of holdings would not 
accelerate volatility, in part because of the types of issues 
that you raised, and I don't think there has been enough 
thought given about that particular phenomenon. I am reasonably 
sure that the general presumption is that a significant amount 
of holdings of equities in the Social Security Trust Funds will 
significantly increase the level of stock prices. I am 
reasonably sure that notion is false.
    Mr. Shaw. Thank you, Mr. Chairman.
    Chairman Archer. Mr. Houghton.
    Mr. Houghton. Thank you, Mr. Chairman.
    Thank you, Mr. Greenspan. I am delighted to have you here.
    I have two questions. First of all, about the current 
account deficit, trade deficit, how serious do you think that 
is? And then, second, you talked about the objective--your 
objective as the maximum sustainable growth of the U.S. 
economy. And I worry about the delicate balance between 
international sources, commodity prices, savings, what the U.S. 
Government does, what business does. What are these things we, 
as Members of the House, ought to worry about when you talk 
about promoting flexibility and competitiveness and the 
atmosphere of churning and creative destruction?
    Mr. Greenspan. With respect to the current account balance, 
the problem we have there is the fact that because the American 
dollar has been held in such high esteem and because it has 
become the major currency that is held in the private sector as 
well as in the public sector as a reserve balance, it means 
that we can run a chronic significant current account deficit. 
Because the other side of the accounting for the fact that 
imports of goods and services exceed exports of goods and 
services is an inflow of capital, and if that capital is not 
coming in, you cannot maintain the gap. That it has come in for 
years now is an indication that our perceived policies are 
sound and that the dollar is sound and that it is a stable, 
noninflationary system in which foreigners are effectively 
investing.
    The problem that we run into, unfortunately, is that, as 
our net foreign debt rises, that the amount of interest we must 
pay, and indeed dividends as well, continues to rise and that 
process itself creates a type of situation that if at some 
point foreigners stop wanting to continue to accumulate dollars 
it creates a major reverberation back on the American economy 
which has to adjust.
    We have seen no evidence of that phenomenon arising. We 
know it as a problem only in the abstract and the arithmetic of 
the issue is that the rise in the net debt cannot continue 
indefinitely. The question is, what does that mean? Where is 
the end of that rise? It is a question we have addressed 
ourselves to in some considerable detail. We have not yet been 
able to answer it effectively.
    Mr. Houghton. Well, it is important, isn't it, that we 
maintain our position of having the world's premiere reserve 
currency?
    Mr. Greenspan. It is important. It is not essential. In 
other words, there is a great deal of discussion as to whether 
the new euro will make significant inroads into our share of 
the overall reserve assets held by both private and public 
sectors abroad. My suspicion is that unless they find that they 
run into more problems than it seems at this stage they are 
about to run into, some erosion of our undisputed huge share 
has got to occur.
    My own suspicion, and I must say I am speaking with very 
little evidence because I don't know how you fully answer this 
question, is that it is only going to be modest.
    Mr. Houghton. Thank you.
    Chairman Archer. Mr. Matsui.
    Mr. Matsui. Thank you, Mr. Chairman.
    Thank you very much, Chairman Greenspan, for being here. We 
appreciate your testimony.
    I was brought back about 17 years when you were chair of 
the Greenspan Commission, and it required a lot of leadership 
in the spring of 1983 to solve that problem. Because you came 
up with some rather difficult things: Deferral for 6 months, 
the CPI for senior citizens which picked up $40 billion, as I 
recall, and obviously a small payroll tax increase at that 
time. After you had come up with your report, there was some 
tentativeness because you didn't have unanimity at that time.
    And the Chairman then, Chairman Dan Rostenkowski, and 
obviously Speaker O'Neill and Jim Baker got together and you 
and Senator Dole and, I believe, Senator Moynihan got together 
and they all committed not to trash the proposal that was 
coming out. They all said, let's step back and see if we can 
resolve this. Because everybody understood how difficult this 
issue is. And I would hope we would learn by that experience.
    I just want to mention two things. You mentioned two 
reasons why we shouldn't be in the equity market. One was the 
lower rate of return for beneficiaries and, obviously, the 
misallocation of capital issue. Those are two major, 
significant issues. It is my understanding, however, that 
public pension funds--public pension funds are about 10 percent 
of the market. And you agree.
    At this time, the President's proposal is just about 4 
percent of the market, 25 percent of the 60 percent of the 
surplus or 62 percent of the surplus, that is significant from 
some perspectives. Others have suggested that is probably not 
enough. You can get a greater rate of return.
    It is my understanding that in the public pension programs 
you do get a greater return than you do through Social Security 
by the government bond. Is that correct?
    Mr. Greenspan. That is correct.
    Mr. Matsui. Even though it is 3 percent lower than the 
private investment in the equity markets, it is still greater 
than Social Security?
    Mr. Greenspan. Yes, it certainly is.
    Mr. Matsui. And so that it does provide some level of 
benefit for Social Security recipients even though it is not as 
great as if it were in the market on an individual basis.
    Second, the misallocation of capital, that is very 
important, I think, because obviously public pension programs 
are creating some disruption in the marketplace. Certainly if 
the Federal Government went in, it could create disruption in 
the marketplace, but I suppose whenever government programs get 
into the market or the economy, there is another purpose.
    For example, we spent trillions of dollars over the last 
decade or two on the defense budget. And I supported the 
defense budget over the years, particularly in the eighties 
through President Reagan because we were seeing the Soviet 
threat, the East-West conflict and, obviously, it provided some 
level of benefit. And the Berlin wall dropped in 1989, so we 
actually won the cold war. So those expenditures actually 
provided a big benefit.
    But if you go back to the Michigan study and you go back to 
other studies, if one put aside that goal of our confrontation 
with the Soviet Union, one would come to the conclusion that 
perhaps that effort was a misallocation of capital. Is that 
correct? Because, after all, you could have used those 
trillions of dollars in the R&D market, you could have used it 
for productive pursuits, perhaps through consumer technology 
advances.
    Mr. Greenspan. In that particular context it is important 
to separate certain aspects of a society. I would scarcely 
argue that our military programs were market efficient. I think 
that the Congress has gone over them in great detail and----
    Mr. Matsui. If I could understand--I don't mean to 
interrupt, but you are saying they were not efficient?
    Mr. Greenspan. They were not.
    Mr. Matsui. You said it the other--I just wanted to make 
sure I understood it.
    Mr. Greenspan. I am sorry. On the contrary, government 
procurement is a centrally planned system. It may exist in a 
private market, in a free, democratic system, but it has got 
all the characteristics of Gosplan. And Gosplan, the Soviet 
system of central planning, was allegedly a very efficient 
means which they thought would function.
    You have got to put the policing power aside. You do not 
endeavor to apply market efficiency criteria to that particular 
function of a society except in a more general way. I might say 
it is a necessary condition for the market system to function. 
I would never argue that it should be integrated with it.
    Mr. Matsui. If I could just conclude, and perhaps you can 
respond to this.
    There is no question in my mind that much of government 
spending--Federal, local, State--creates a misallocation of 
resources. Because, obviously, if you have a free-peer market, 
you are probably going to get the greatest efficiency. The 
problem is that for Social Security we perhaps have a different 
goal. We have an additional goal besides market purity, and 
that obviously is to protect the safety net.
    I believe that 40 percent of the American public currently 
is in the market, but 60 percent is not in the market. And you 
recall that Mr. Levitt said that you have got to be somewhat 
cautious about this because there may be some difficulties 
regarding that 60 percent in terms of investment risk. You saw 
what happened in Great Britain. And certainly other forms of 
government will have to come in if, in fact, those folks misuse 
their Social Security benefits in the equity market.
    Mr. Greenspan. I don't deny there are problems there, and I 
agree with Arthur Levitt on a number of the issues but not all 
of the issues he raises.
    But let's remember that, unless savings increase, the mere 
fact of getting a higher rate of return from equities in the 
Social Security Trust Funds of necessity means that there will 
be comparable losses and returns in the private sector, very 
largely in private pension fund rates of return. And if you 
think of the total retirement system, public and private, the 
use of equities in the public system in lieu of U.S. Treasury 
securities is a zero sum game. It does not increase the overall 
rate of return to the system as a whole. And unless and until 
one can demonstrate that the net national savings increases, 
the form in which it is invested becomes irrelevant.
    And my argument is with the problems that it creates for 
corporate governance and for capital allocation questions. It 
strikes me that there is really no strong evidence to suggest 
any positive aspects of moving Social Security funds into 
equities. And I find it very difficult to find rational 
arguments taking into consideration the whole system for that 
particular initiative.
    Mr. Matsui. Thank you.
    Chairman Archer. The gentleman's time has expired.
    Mr. Herger.
    Mr. Herger. Thank you, Mr. Chairman.
    Mr. Greenspan, I would like to follow up on some comments 
you made earlier; and to make sure I understand you. You have a 
very strong concern, as I do, about one of the proposals of the 
President last night in which he would take part of the Social 
Security surplus and invest it in the stock market and under a 
situation in which the government, the Federal Government, 
would own those investments within the stock market and the 
potential detriment that that can do as opposed to perhaps 
taking a portion of this and having individuals be able to own 
those investments.
    And my specific question has to do with one of the 
presenters in the recent White House Conference on Social 
Security, Martin Feldstein, who has developed a reform plan 
that combines an investment-based system of personal retirement 
accounts with the traditional tax-financed Social Security 
which he believes can eliminate the need for an increase in the 
payroll tax or decrease in Social Security benefits. The 
required personal retirement account deposit of 2 percent 
covered earnings could be financed by the projected budget 
surpluses and the future increases in corporate tax revenues 
that result from the personal retirement account savings.
    And my question, Chairman Greenspan, are you familiar with 
this proposal and would you give us your thoughts about this 
type of approach?
    Mr. Greenspan. My recollection is that what makes his 
system work is the mandatory 2 percent additional savings which 
creates additional capital which in turn creates additional 
assets and higher GDP. So, in effect, he is funding the 
increase in his system.
    There are a number of economists who would take an 
exception with him on whether some of his assumptions about how 
much productivity there would be are realistic or not, but I do 
think that the general approach that he is taking is something 
which is one that requires considerable detailed evaluation by 
the Congress.
    Mr. Herger. Thank you again.
    And then, just to again follow up with the first part of my 
statement, do I understand that you do have very serious 
concern about the Federal Government actually taking money and 
then owning stocks in the private sector?
    Mr. Greenspan. Everyone is concerned about that. The 
difference is whether or not it can be insulated from the 
political system.
    There are those who are arguing for a special type of board 
which would be technically independent of the political system 
in a way in which the Federal Reserve is supposed to be 
independent of the political system. I guess I have been around 
this town too long to seriously believe that, with that huge 
pot of funds sitting out there, the pressure is there to find 
means to employ it for means other than direct budgetary 
expenditures. In other words, if you have a particular project 
and you are restrained by budget caps, there are a lot of 
alternate ways in which you do it by regulation, mandation of 
actions on the private sector, and this would be an additional 
one. This would be a means of obtaining funds without a 
particular effect on unified budget, and hence PAY-GO and all 
the other rules are not relevant.
    Mr. Herger. Thank you again, Mr. Chairman. I share those 
same concerns. I think they are well taken. And I also 
appreciate your thoughts on the other--that perhaps it would be 
very advantageous for us to begin considering at least taking a 
portion of this money in which the individual taxpayer and 
citizen would own these stocks as opposed to the Federal 
Government owning them. Thank you very much.
    Chairman Archer. Mr. McCrery.
    Mr. McCrery. Thank you, Mr. Chairman.
    Chairman Greenspan, here I am. Let me talk about some 
specifics, as I understand it, as to what the President has 
proposed, because I am interested in your thoughts on the 
specific amount.
    You stated earlier there are to be trillions of dollars 
invested, but the way I read the publication that I presume is 
from the White House, the President only proposes investing 
directly from the government about $680 billion over the next 
15 years in the stock market. So, given that number that is far 
short of several trillion dollars, do you still have the same 
concerns about investing by the government?
    Mr. Greenspan. If we start down that road, I will venture 
to say the number will turn out to be substantially larger than 
the number the President is using.
    Mr. McCrery. Well, I understand the slippery slope theory, 
but let's assume----
    Mr. Greenspan. Let me just go back and say even that number 
I find is large. Let me say it is not so much a tradeoff of 
benefits versus costs. I am, frankly, just hard-pressed to find 
any benefits there are in doing it if indeed it is a zero sum 
game in which, if you do not increase the national saving, the 
mere investment of public funds in American equities does not 
change saving. And all it would do would essentially imply a 
swap of the U.S. Treasury issues held by the Social Security 
Trust Fund with equities in the private sector. So that those 
government low-yielding instruments must end up in the private 
sector, probably in the private pension funds.
    It is not a question of whether a small amount is good. I 
am just not finding reasons to even say that a negligible part 
is of value. I cannot find a logical reason to do it.
    Mr. McCrery. Well, Chairman Greenspan, I am sure you could 
find economic fault with many of the things that the Congress 
does, but, unfortunately, we are constrained by politics and by 
the desire of the public to have a sound Social Security 
system. And the President's proposal, let's give it some due. 
From an economic theory standpoint you are correct, but from 
the standpoint of solving the immediate problem of money in the 
Social Security system, it does help to solve that particular 
problem. So--and I am kind of playing devil's advocate here 
because I do want to get your frank reaction to what we will 
hear from the President's side.
    Let me move on now to your suggestion that we need to fully 
fund Social Security, and you said that you think we have a 
better chance to fully fund it through a private system rather 
than a public system. We could fully fund it, couldn't we, by 
just increasing payroll taxes? That would be fully funding it, 
wouldn't it?
    Mr. Greenspan. That is correct, Congressman.
    Mr. McCrery. And you are opposed to that?
    Mr. Greenspan. I would be opposed to it on the grounds that 
doing it in the private sector is better. But if you ask me is 
it feasible to fully fund the Social Security system by 
increasing taxes and therefore increasing government savings 
and which, in turn, would increase national savings, the answer 
is yes.
    Mr. McCrery. That would be one way to fund it, even though 
you think it is not the most desirable way to do it.
    Mr. Greenspan. Yes.
    Mr. McCrery. Would you elaborate a little bit on how we can 
fully fund the Social Security system privately?
    Mr. Greenspan. Well, let's talk about the Social Security 
system in the general sense of benefits that are now being 
created under current law. The question of fully funding those 
benefits is what the crucial issue is. And I agree with what 
you just said, it can be done in a number of ways. It can be 
done in the public sector. It can be done in the private 
sector. It is my view that it is far more feasible to do it in 
the private sector.
    The crucial issue, however, is that we have to do that. 
Now, I am not saying we need absolute full funding but a very 
substantial increase in funding is required largely because the 
arithmetic of the pay-as-you-go system against the demographic 
changes in the population makes the system immediately 
vulnerable to the types of problems which would require a huge 
increase in taxes if we don't come to grips with it relatively 
soon.
    Mr. McCrery. Well, Mr. Chairman, my time is up. If we get 
another round--you didn't answer my question. I wanted you to 
elaborate on how it could be fully funded in the private 
sector. So if you could give that some thought.
    Mr. Greenspan. I would just basically--well, let me say 
that is a 15-minute discussion.
    Chairman Archer. The gentleman's time has expired.
    Mr. Coyne.
    Mr. Coyne. Thank you, Mr. Chairman.
    Chairman Greenspan, thank you for your testimony here 
today. And in your testimony you pointed out that it is well 
known that removing barriers to free flow of goods and services 
across national borders affects positively the standard of 
living, and I don't think anyone would disagree with that, and 
protectionism should be avoided as much as we can.
    We have a situation in this country where Japan and Russia 
and Korea are dumping their steel product in this country, and 
I was wondering if your admonition against trade barriers 
extends to the Commerce Department and our trade ambassador 
taking actions to try to ameliorate that problem?
    Mr. Greenspan. I am very chagrined about what has happened 
to the steel industry. I was, in a sense as a youngster, 
brought up in the industry. That was my major specialty. So I 
know the industry exceptionally well. It has had a remarkable 
record in this country.
    The trouble, unfortunately, is that it has gotten smaller 
and smaller, and, as you are probably aware, total employment 
is now at probably a little over 200,000, when it was many 
multiples of that 15 or 20 years ago.
    There is just no doubt that increased imports have had a 
significant impact. My recollection is that hot-roll sheet 
prices have gone down really quite dramatically. It has not 
gotten to the point yet where there are industrywide losses; 
that is, many mills are still doing reasonably well although 
their earnings are down, but they are still quite positive, and 
they are not doing all that badly. U.S. Steel is still in the 
black. Bethlehem Steel is not. So it is a tough situation for 
them.
    The dilemma that trade policy has is how do you help the 
10,000 or so U.S. steelworkers who have been laid off as the 
market has weakened? How do you help people who are confronted 
with these very difficult types of problems?
    My own view is that you need very generous, basic support 
for the workers. You have to be very careful about imposing 
quotas or other types of things which will create retaliation 
and undercut our whole trading system. This is one of the 
really very tough problems that any trade negotiator has to 
recognize. You have real hardship, and there is no question 
that it is there.
    I remember once I went up to Homestead outside of 
Pittsburgh, and I remember when it was really the biggest plant 
in the world. It was really something to behold, and now there 
is nothing there to speak of. And that is a real tragedy, and 
we have to address that the best we can, but recognize that we 
are dealing with a very small segment of the American economy. 
We have to be very careful in addressing the problems of these 
industries not to undermine the capacity of the broad system to 
function.
    So I am glad I am not in the position where I have to make 
those types of choices. I think they are pretty tough.
    Mr. Coyne. Well, Homestead is in my district; and, as you 
point out, 10,000 steelworkers have lost their jobs as a result 
of this dumping problem in the country; and the Commerce 
Department has had an initial finding of violations.
    And the only question I had for you, do you think we should 
let other nations dump their steel in here at less than what it 
costs to produce there or should we take some actions against 
that kind of practice?
    Mr. Greenspan. There is a very difficult problem of what 
their cost structures are. For example, I defy anyone to tell 
me what Russian steel costs. Their books cannot be in shape to 
find out what their marginal cost is. I know enough about 
pricing in the industry to know that the notion that you're 
pricing under cost is a very tricky issue because the fixed 
cost levels in producing steel are very high.
    All I can say to you is that whatever it is we do, if we 
start to block the free flow of goods and services, it doesn't 
stop there. The consequences of introducing increased 
protectionism in that area is very costly for the Nation as a 
whole, and I suggest that we do everything we can to try to 
assuage the real and serious problems that both the industry 
has and the individual workers have but not beyond the point 
where it creates a serious trade problem for us. That is a 
shortsided view of the way the world should work, and I trust 
we will not go in that direction.
    Mr. Coyne. Thank you.
    Chairman Archer. Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman, for holding this 
hearing; and thank you, Mr. Greenspan, for appearing before the 
Committee today.
    The Federal tax burden as a percent of GDP is the highest 
it has been since World War II; and I would like to get your 
comments on if you agree that the tax burden is too high and, 
if you do, what types of tax cuts should we be considering and 
what types of tax relief or tax cuts should we be staying away 
from?
    Mr. Greenspan. The issue of whether it is too high is a 
tricky problem for an economist, but there are those who are 
concerned about it. There is no question, however, that the 
numbers are large--it is over 21 percent of the GDP at this 
stage.
    All of the change that has occurred in recent years shows 
up in the individual income tax receipts, and even though we 
don't yet have the statistics of income for 1997--I am not even 
sure we have 1996 data yet--it appears, looking at the nature 
of what we see in the tax receipt data, that a very substantial 
part of it is related to the rising stock market in two ways. 
One, there has been a substantial increase in capital gains 
taxes, but probably far more important, as I think we are all 
acutely aware, there has been a really major shift in the form 
of compensation which exists mainly for management and middle 
management in the way of stock options, in the way of bonuses, 
and in the way of all sorts of things which relate to the value 
of the stock of the company. And so even though it is not 
capital gains, it is clearly a stock market related issue.
    Second, there has been a fairly dramatic rise in the 
turnover of existing homes which is not unrelated to the stock 
market itself. The commissions that are involved in that area 
are really bolstering taxable income, mainly at the higher 
marginal tax rates, so that we clearly see a fairly substantial 
stock market related directly and indirectly increase in 
revenues, and it depends on where the stock market goes how 
substantial those revenues will be. But remember that a goodly 
part of that occurs as a consequence of a rise in stock prices; 
unless they continue to rise at near the rate they have, one 
must presume that the tax base is going to be lowered.
    My own view with respect to taxation is the lower, the 
better. I have always argued for lower marginal tax rates 
because that is where the incentive structure is. I have argued 
for lower capital gains taxes. Indeed, I have always been of 
the presumption that capital gains taxes are a poor way to 
raise funds because of their negative impact on capital 
investment. These taxes have a greater negative effect than any 
measure of the value of the receipts that you as a consequence 
create. So I would say in some sense a marginal tax rate 
reduction and capital gains tax reduction have always been in 
my judgment what is useful in this country.
    The question of whether the burden overall is too high is 
difficult to make at this stage if we are getting such terrific 
capital efficiency. I do think, however, that we could still 
improve it further if we did move the marginal rates lower.
    Mr. Camp. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Archer. Mr. Ramstad.
    Mr. Ramstad. Thank you, Mr. Chairman; and thank you, 
Chairman Greenspan, for being here today as well as the 
masterful job you have done with monetary policy.
    I just want to follow up the question my colleague from 
Michigan asked. With inflation hovering around 2 percent--and 
thank you for keeping inflation in check--and growth in GDP at 
3 to 4 percent, we have seen about an 8-percent growth rate in 
Federal tax revenues, and you certainly explained the reason. 
As a follow up, some are suggesting a substantial reduction in 
the rates. And, again, thank you for your advocacy, which you 
reiterated today, for lower marginal rates as well as capital 
gains cuts which we have done in part.
    What would be your reaction? Would you support, say, the 
proposal being touted currently for a 10 percent across-the-
board reduction in rates?
    Mr. Greenspan. Congressman, as I said at the beginning, my 
first preference is to allow the surplus to run, because I 
think that the benefits to the economy through the effects on 
increasing saving are a very important priority for this 
country. If it turns out that that is politically infeasible, 
then I would say that some form of tax cut is a far superior 
way than spending the money, and a 10 percent across-the-board 
tax decrease strikes me as a relatively simple way to do that.
    Mr. Ramstad. Given the factors--the inflationary factor at 
2 percent, the economy growing at an annual rate of 3 to 4 
percent, from an economic standpoint, obviously, this would be 
a sound move. And you don't see the two as being incompatible 
certainly, that is, using x percent of the surplus projected, 
10-year surplus, to apply to Social Security and at the same 
time providing the tax cut that you responded to?
    Mr. Greenspan. That is an issue the Congress has got to 
make a judgment on. I don't think that there is any reasonable 
amount of insight that economists can give you over and above 
what we have just been discussing to make that judgment.
    Mr. Ramstad. The insight you have just provided has been 
very helpful, and we appreciate that.
    I want to ask you with my remaining time about the year 
2000 computer problem. Certainly we recognize that the Y2K 
computer problem affects primarily the aggregate supply side of 
the economy, and I know monetary policy affects mostly the 
aggregate demand side, but is the Federal Reserve prepared--and 
I think this is an important question--prepared in case of a 
Y2K disruption in case it has feedback effects? Has the Federal 
Reserve dealt with this adequately and are you ready if we 
have, God forbid, a recession or a big hit to the economy 
because of problems with the Y2K computer problem of the type 
some are predicting?
    Mr. Greenspan. We obviously are spending a considerable 
amount of time and resources to make sure that, one, the 
Federal Reserve System as a whole with all of our payment 
systems, all of our interconnects to the individual banking 
systems is what we call Y2K compliant, and we are pretty much 
convinced that we are going to be OK.
    We are also increasingly optimistic that the American 
banking system is moving quickly in the direction of being able 
to interface with us and with their clients in a manner which 
will be, I would say, pretty much effective.
    There clearly are going to be mistakes out there which I am 
not able to anticipate largely because a computer program is 
really unforgiving of mistakes. You could have 1,000 lines 
which are perfect and then the next line has got a comma in the 
wrong place and it is gone.
    What we need to recognize is that while we probably have 
got a believably good shot that the internal U.S. systems Y2K 
problems are under control, we cannot be sure about our 
interface with the rest of the world. As a consequence of that 
and as a goodly part of the international flows that are 
involved with automatic computer digital type of interfaces, it 
is conceivable to us that some problems could emerge.
    We have not only clearly tried to fix whatever we can see 
in the current system but we are also increasingly beginning to 
address the issue of what if, and the what if can come in many 
different forms. I am reasonably certain that we will be about 
as prepared as one can be prepared for the unknown, but it is 
unknown. There is nobody I know who has the capability to know 
precisely how this is all going to come out. We have never seen 
anything like this, and all we can do is to try to think of all 
the possible negative outcomes, both prior to January 1 and 
subsequent, and at the moment I would say I personally am quite 
impressed with what we and our colleagues at the Reserve banks 
are doing in this regard.
    Mr. Ramstad. Thank you, Mr. Chairman, Chairman Greenspan.
    Chairman Archer. Mr. Chairman, I think in deference I 
should ask you what your schedule is for the remainder of the 
day so we can plan as to how we proceed from this point.
    Mr. Greenspan. I can go on certainly for a half-hour to 45 
minutes if you----
    Chairman Archer. If that is suitable to you, we will just 
continue for 30 to 45 minutes.
    Mr. Levin.
    Mr. Levin. Thank you. Thank you. You are a highly respected 
figure. You deserve to be. I think one of the problems is that 
you don't please anybody all the time and so people kind of 
hear you selectively. If they like your advice, they take it. 
If they don't, they can skip along.
    Mr. Greenspan. I have observed that.
    Mr. Levin. So let me be clear as to your advice. You said 
your first preference is to let the surplus run. And that is a 
higher preference, for example, as you see it than a 
substantial, across-the-board tax cut?
    Mr. Greenspan. That is correct.
    Mr. Levin. You less prefer large spending increases.
    Mr. Greenspan. That is not a preference.
    Mr. Levin. All right. OK. That is clear.
    Now, just quickly, where does Medicare--addressing Medicare 
fit into your preference list?
    Mr. Greenspan. Congressman, that is one of the most 
difficult problems that we face. As I said before, one of the 
reasons it is exceptionally difficult is that, one, we are so 
increasingly technologically oriented in that area that we need 
to get some judgment as to what the technology is doing, and 
second, we are really quite limited in understanding what types 
of new major advances in pharmacology and the electronic means 
of surveillance of the human body and----
    Mr. Levin. Let me ask you, where should we put this 
preference?
    Mr. Greenspan. I was about to get to another issue which I 
think is really at the base of it. What we try to do in our 
society is allow people to make judgments of how they wish to 
allocate their real incomes, and the American people have very 
clearly chosen increasingly to put it into medical services.
    When I was very young, I remember the doctor used to show 
up and he would give you two aspirin and say, call me in the 
morning, and that was high-tech medicine. Now our capabilities 
of doing things are just awesome, and if everybody got 
everything that was technologically possible, we would probably 
be eating up half the gross domestic product.
    There is clearly an issue implicit in the way we handle 
ourselves in the medical services area. The crucial issue is 
that there is one form or another of rationing that goes on, 
and rationing of medical services, I think, is anathema to the 
average person. So we have this very crucial dilemma, granted 
the capability of actually expending huge resources in a 
positive manner. That is, we probably can improve the quality 
of health of everyone to a certain degree, considerably more 
than we do at this stage, with the expenditure of a huge amount 
of resources.
    I don't know the way in which one can properly make those 
balanced judgments. Here the Congress has, in my judgment, the 
most difficult of choices, because you are trading human life 
against other values in life. If we knew a great deal more 
about the technologies' future, you could probably be in a far 
better position to make the----
    Mr. Levin. Let me quickly ask you, on trade we hear you 
caution. I don't think that is the same as inaction. But let me 
ask you about the government investment of funds. By the way, 
if it is done privately, I don't see how it increases the 
savings rate any more than if the government does it.
    Mr. Greenspan. It would do so only at this particular point 
if the additional savings were mandated.
    Mr. Levin. So let me ask you this, then: The Federal 
Reserve Board is insulated from political pressures 
considerably, is it not?
    Mr. Greenspan. To an extent. The only thing that we are 
insulated from is a countermanding of the decisions that we 
make under law in the Federal Open Market Committee.
    Mr. Levin. Why can't we do, I guess you have to answer this 
quickly, the same in terms of a government investment?
    Mr. Greenspan. Congressman, that is what people are 
recommending. It is just that I find it very difficult to 
believe that it is feasible. There are people whom I respect, 
whose judgment I respect, who disagree with that. It is not an 
economic judgment. I guess it is a political judgment. It is a 
question of how our system works.
    I guess I have just seen too many Presidents in my lifetime 
who, when confronted with a problem in the Federal budget, 
meaning a lack of resources and a huge pot of money sitting out 
there, would be unable to resist moving in that direction. I 
just don't believe they would. A majority of both houses can 
create laws that can overturn anything that is done to set up 
such sort of a Federal Reserve Board type related reserve fund.
    Look, your judgment on this has got to be superior to mine. 
You have been involved in all sides of the political process 
for a good number of years. That is my judgment. If you think 
it is wrong, clearly your judgment would be superior in that 
regard.
    Chairman Archer. The gentleman's time has expired.
    Mr. Johnson.
    Mr. Johnson of Texas. Thank you, Mr. Chairman. Welcome 
again. In the past you have testified that you expect a 
correction in the stock market, and I guess it hasn't happened 
exactly like you had forecast. I wonder, since the prices of 
high-tech stocks have really zoomed and there aren't any real 
profits in those companies yet, especially the Internet ones, 
what your forecast is now, and how is that going to affect some 
private investment that we might formulate for fixing Social 
Security?
    Mr. Greenspan. I am not sure I want to get involved in 
individual types of stocks and their valuation. As I said in my 
prepared remarks, I made a few comments with respect to what I 
think the historical relationship of values are, as best we can 
judge them. I know of no one who would argue at this stage that 
at minimum we are not at the higher levels of valuation.
    I guess that is about as far as I want to go at this 
particular stage. There are lots of ways in which markets can 
evolve for lots of different reasons. I chose my words as 
closely as I could in my formal remarks, and I would just as 
soon not go beyond that.
    Mr. Johnson of Texas. You mentioned the Y2K problem and the 
fact that there is no assurance that internationally it is 
going to work out. You are fairly confident that we are OK, 
U.S.-wise, and yet our interrelationship internationally is 
pretty intertwined at this point. How do you expect that to 
affect--I mean, already you saw a bump when Brazil deflated and 
it came right back up. And this morning even there was a bump 
at 10:30. Believe it or not, when you started testifying it 
went down and it is back up.
    How do you account for that in the long term?
    Mr. Greenspan. I would just as soon not try to.
    Mr. Johnson of Texas. OK. You are pretty honest, as a 
matter of fact. I appreciate that.
    Do you think that our tax system sufficiently rewards risk-
taking and entrepreneurship? And if we lowered taxes, I think 
you intimated it ought to increase the dollars available to 
make the economy stay strong.
    Mr. Greenspan. Our tax system relative to the rest of the 
world is not bad, but there is no doubt in my mind that it 
could be improved upon. I do think that lowering marginal tax 
rates specifically and lowering the capital gains tax rate, in 
my judgment, would enhance the ability to increase incentives 
and capital investment in this country.
    Mr. Johnson of Texas. Thank you very much.
    Chairman Archer. Ms. Dunn.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    Mr. Chairman, I want to stay on this track because I really 
am intrigued with your comments on how the surplus should be 
used. I wanted to ask you further, if a portion of the surplus 
is returned to the people in the form of tax relief, and you 
have talked about marginal rate reductions and capital gains, 
could you discuss for me your analysis or your impression or 
your thoughts on how lowering the death tax, the inheritance 
tax, would affect the economy, the growth side of the economy? 
Mr. Tanner and I are cosponsoring a rate reduction, 5 percent a 
year, and I am interested in your thoughts.
    Mr. Greenspan. Which tax are you referring to?
    Ms. Dunn. What is your analysis of how lowering the rates 
on the death tax or inheritance tax would affect the growth of 
our economy?
    Mr. Greenspan. I have seen a lot of studies on that and I 
have found them all inconclusive, so I have nothing really 
substantive to add. Clearly, when we had a very substantial 
part of our population on the farm, the issue of inheritance 
taxes was a really debilitating problem for the transfer of the 
property from one generation to the next. The fact that our 
inheritance taxes throughout a substantial part of our history 
were either zero or very low, I thought enhanced a goodly part 
of the development of this country.
    I can't say that I feel as strongly currently as I would 
have, say, in an earlier period. But my general view is, it is 
not terribly obvious to me that the amounts of money which we 
raise through the inheritance tax, which is really quite small, 
is economically positive. In my own judgment, it is probably 
otherwise, but I can't honestly cite evidence which I would 
consider to be conclusive in that regard.
    Ms. Dunn. What about your thoughts on corporate capital 
gains reduction?
    Mr. Greenspan. Well, I would put the capital gains tax 
reduction on both individual and corporate earnings.
    Ms. Dunn. Let me move to a different topic that affects my 
State, Washington State, almost more than any other State in 
the Union. That is the fact that our exports have been reduced 
to Japan over 31 percent in the last year. We are very 
concerned about this. As the second highest exporting State in 
the Nation, it has a huge effect on us. Japan is seen as 
driving the economy in Asia, and I would like to have your 
thoughts on whether you believe that the Japanese, as they have 
made their corrections in their own economy, if you think that 
they are responding adequately to restore their economy and the 
economy of Asia?
    Mr. Greenspan. As I have said publicly, I am hopeful that 
the Japanese will address the issue of their ailing banking 
system with a great deal more alacrity than has been the case 
of late.
    The problem that occurred in Japan and still exists is a 
very dramatic decline in the value of real estate assets when 
the so-called real estate bubble burst in 1990. Real estate is 
the major collateral for the banking system in Japan, and the 
immediate result was a very major increase in nonperforming 
loans, which could have been addressed very early on in a 
manner similar to what we did with the RTC when the savings and 
loan debacle hit us. Had they done that, in my judgment, they 
would have cleared up a corrosive force that was spreading in 
their banking system and they now would probably have an 
economy which is doing a good deal better than it is.
    The problem in Japan is that their financial intermediation 
is very largely commercial banking, as differentiated from the 
United States where we have a very significant capital market 
as well. The result of that is the increasing problems within 
the Japanese banking system have induced a major credit crunch 
in Japan. The problem has gotten so bad that Japanese banks 
have to pay a significant premium in the London market for 
borrowing in yen relative to British and American banks, for 
example, which tells you that it is a credit-risk problem of 
very major dimensions and that unless and until they resolve 
their banking problems, it strikes me that the economy's 
ability to come back in a vigorous manner is going to be 
delimited.
    So I should say that there are lots of things that have to 
be done to reinvigorate the Japanese economy, but unless they 
address the nonperforming loan problem in a significant manner, 
which I have always argued has got to be handled in a manner 
similar to our RTC, I think that the credit crunch will 
continue to hobble economic growth there.
    Chairman Archer. Mr. Jefferson.
    Mr. Jefferson. Thank you, Mr. Chairman.
    You say in your testimony, among other things, that it is 
important not to undermine the highly sensitive ongoing process 
of reallocation of capital from less to more productive uses 
through enactment of various policies that may sow 
uncertainties, undermine confidence and so on. Do you have any 
particular prospective policies in mind that might result in 
that sort of problem, that the Congress should refrain from 
being involved with?
    Mr. Greenspan. I did not quite get the----
    Mr. Jefferson. In your testimony, at the end you say that 
it is important not to undermine the highly sensitive ongoing 
process of reallocation from less to more productive uses. And 
previous to that you say that policymakers are going to have to 
be particularly wary of actions that unnecessarily sow 
uncertainties.
    So my question is, did you have any particular actions in 
mind that you might see on the horizon, that the Congress might 
be contemplating or policymakers might be contemplating, that 
might cause this concern for you?
    Mr. Greenspan. Let me just address the broad allocation 
problem because the thing which has struck me about the way our 
markets have evolved is that the technology has enabled us to 
unbundle risks in a manner which it has never been capable 
before. Individual consumers and investors have been able to 
differentiate between various products.
    For example, you now can go out to buy a car and you can 
get all different types of special vehicles which we never were 
able to get before. Remember, several generations ago Henry 
Ford said, you know, ``I will give you any type of car you want 
so long as it is black.'' And we have changed that. We have 
gotten very sophisticated.
    The technology has essentially created a major ability to 
reallocate capital in positive ways. There are a number of 
things that we can do to enhance it from the governmental point 
of view. My major concern would be, for example, that we be 
careful not to raise the minimum wage, and the reason I say 
that is that all the evidence that I have seen suggests that 
the people who are most needy of getting on the lower rungs of 
the ladder of our income scales, developing the skills and 
getting the training, are unable to earn the minimum wage and, 
as a consequence, cannot get started.
    We have to be very careful about thinking that we can 
somehow raise standards of living by mandating an increase in 
the minimum wage rate. As a consequence of that, the need to 
keep our labor markets as flexible as possible and the ability 
to get the training to move up the ladder has got to be 
unimpeded because we cannot have a sophisticated capital market 
or a sophisticated system overall unless we have a flexible 
wage market.
    I would say in that respect if there is any single thing 
that we could do which would help over and above a number of 
other things that have been discussed today, I would say be 
careful about moving the minimum up inordinately. My own 
preference would be to lower it and in fact even eliminate it, 
because I think it does more damage than good. But I recognize 
I am in a significant minority on that question.
    Mr. Jefferson. This issue of fully funding the Social 
Security system, Mr. McCrery asked about it, and I was 
intrigued by your comment in your testimony on that issue. He 
talked about fully funding it through the public sector and you 
intimated a preference to having it done through the private 
sector. You also said it would take a long time to answer that 
private sector question.
    But nonetheless, I don't know what you had in mind, and I 
would like to know if you could provide something of an answer 
as to how the private sector might be an answer to fully 
funding the Social Security retirement system?
    Mr. Greenspan. It is going to be very difficult. The issue 
I come at is that it needs to be done. That is statement number 
one, and I infer that from the clear and growing evidence that 
we are not going to be able to meet the demands of the goods 
and services that retirees, who are going to be in hugely 
increasing numbers, are going to require upon retirement.
    So I start off with the proposition that we have no 
alternative but to go to some form of increased funding or full 
funding. The more difficult question is how to do that, and 
clearly you can do it in a number of ways. You can raise Social 
Security taxes, which I think would be a problem in the labor 
market or you could significantly increase the average age of 
Social Security entitlement to more effectively link it to life 
expectancy. Indeed, I think what we should be doing is have the 
number of years that one is in retirement remain proportional 
to the number of years which one works and contributes to the 
fund. As it stands now, the ratio of retired years to working 
years is increasing and that is arithmetically unsustainable.
    There are also a number of things we can do with bend 
points in the benefit programs. There are a number of things we 
could do to flatten out benefits without materially affecting 
the levels of benefits in a large way, which would have a very 
major effect on the underfunding that currently goes on. So can 
it be done costlessly? The answer is absolutely not.
    Mr. Jefferson. These solutions you talk about are all 
within the public domain. The private sector domain is the one 
which is the most confusing as to an obvious answer, and there 
are some suggestions as to where an answer might be.
    Chairman Archer. Will the gentleman suspend for 1 minute? 
In deference to the fact that there are other Members that need 
to try to get their 5 minutes in, perhaps the Chairman can give 
you that in writing or in some other way. I hate to cut any 
Member off, but I want as many Members as possible to be able 
to inquire.
    Mr. Greenspan. Write me a note and I will be very glad to--
--
    Chairman Archer. I fear the answer might be rather lengthy.
    Mr. Collins.
    Mr. Collins. Mr. Chairman, thank you.
    Chairman Greenspan, please bear with me. I am probably the 
only one on this Committee that will speak at a slower pace 
than you do. There are two areas that I want to refer to and 
follow up with a question.
    You mentioned Brazil and their economy and the fact that 
government actions have led to a point that government 
liabilities probably and do exceed potential revenues for the 
Government of Brazil. I think you may be referring to some 
programs that redistribute income. I see the United States as 
having that same potential problem, based on government 
entitlement programs that have been created over the years. One 
in particular is Medicare. And I agree with you that Medicare 
is a more significant problem for us to deal with than Social 
Security.
    But I want to refer to Social Security and the fact that we 
have a pay-as-you-go system. In other words, the workers today 
are paying the payroll tax to meet the benefits of those who 
are receiving the Social Security checks. You mentioned current 
retirees and how their returns on the investment that they made 
from those payroll taxes over the years are much better. 
Actually, many of them have received back in 3 to 5 years more 
than they actually had reduced or deducted in payroll tax.
    But then I want to go to my generation. I was born in 1944. 
I thought I was the beginning of the baby boom generation but I 
learned last night it was 1946. But at the White House in the 
Social Security summit in December, information was shared that 
my generation probably will have to draw benefits for a period 
of some 19 years before we get to a point of breaking even, 
based on increased taxes and the higher earnings limit that 
have been put in place for Social Security taxes.
    But then we look at the next generation behind me, the 
younger people. You referred to the fact that they, as has been 
said before, believe more in UFOs than they do that they will 
ever receive a Social Security check, because the same 
information that was shared with us at the summit on Social 
Security at the White House was the possibility of younger 
people never living long enough to even get a return on all of 
their investment through the payroll tax.
    That is the reason I think we need to focus on that 
generation and generations behind them, as to whether or not we 
are going to establish a true retirement program for them or we 
can continue with this socialized insurance program we have 
today called Social Security. I think we need to focus on the 
fact that they need a true retirement program, and I think it 
will do several things.
    First, it will phase out the pay-as-you-go system that you 
said needs to end. Second of all, I think it will increase 
individual savings and overall savings rates. It will make more 
funds available for capital investments. And I think that it 
has the potential of reducing the payroll tax in the outyears, 
which I think will be very important and significant to younger 
generations, rather than having to increase the payroll tax to 
meet the current socialized insurance program.
    My question to you is very similar to what Mr. Jefferson 
was leading into. When you talk about the importance of not 
undermining the highly sensitive ongoing process of 
reallocation of capital from less to more productive uses for 
productivity and standards of living to grow, not only must 
capital be raised and markets be allocated efficiently but 
internal cash flow, including the depreciation charges for 
existing capital, must be changed. Are you suggesting that we 
revise the current depreciation schedules based on the new 
current high-tech equipment that is used so much?
    You mentioned the medical field. I am in the trucking 
business. There is quite a difference today in the current 
truck market than there was 20 years ago when I went into it. A 
lot of it is high-tech. That is true throughout the industry, 
computers and all. Should we revise the depreciation schedules 
more in line with the life expectancy of that equipment and 
usage of it than we currently do?
    Mr. Greenspan. It is very difficult to get a depreciation 
schedule which essentially replicates the economic lives of the 
various different types of equipment that we have. Over the 
years there has been considerable endeavor on the part of the 
Congress to restructure depreciation schedules to be more 
closely aligned to the expected average lives.
    One of the troubles, however, is that because of this 
continuous change in the structure of capital, it is hard to 
keep up. I don't know at this particular stage, not having seen 
any studies--but I am sure there are studies--of to what extent 
the most recent set of depreciation guidelines as they exist in 
the Internal Revenue Code, which go back a number of years now, 
still apply to what the real world capital asset turnover is.
    If indeed it turns out that it is a significant issue, I 
would say that if you have a depreciation code which is 
debilitating to the investment structure, you are going to 
inhibit the appropriate allocation of capital. And indeed I 
would say that should be addressed. I must say, though, I don't 
know anything particular that I have seen which suggests that, 
but I do think it is something worthy of study if it has not 
been particularly done in some detail recently.
    Chairman Archer. Mr. English.
    Mr. English. Thank you, Mr. Chairman.
    Chairman Greenspan, your testimony here is timely and 
deeply appreciated. I want to follow up directly on Mr. 
Collins' question. I am very interested in the remarks in your 
testimony about the fact that growth has been fed, at least in 
part, by investment in capital stock. I wonder, as a followup, 
if Congress were to decide to scrap depreciation completely and 
go to a system of expensing, what sort of impact would you 
expect that to have on economic growth?
    Mr. Greenspan. The first thing it would do is provide a 
very significant tax cut, clearly, and increased cash flows 
historically have always had the impact of increasing capital 
investment. If you take a step back and say how did the system 
work when we didn't have any corporate tax at all, clearly the 
incentive structure was different from the way it is today.
    I think the question you have to ask is, if you are going 
to give a significant tax cut which would be implicit in that, 
whether it is better focused in the depreciation area or at 
marginal tax rates. At this stage I am not sufficiently up to 
date on all of the discussions that have existed on this 
question recently to be able to give you a thoughtful judgment 
on it.
    Mr. English. Then in that case, Mr. Chairman, on another 
topic, recently the U.S. taxpayer has been called on, either 
directly or through multilateral institutions such as the IMF, 
to act as a lender of last resort to stabilize the rapidly 
devaluing currencies around the world. These devaluations are 
fairly clearly the result of failed micro- and macroeconomic 
policies of the countries involved, and it seems that despite 
tens of billions of dollars of lending, devaluations have been 
occurring in any case, although admittedly in a much more 
orderly fashion. These devaluations obviously put some of our 
sectors, steel as an example, at something of a competitive 
disadvantage.
    Now setting aside for a moment the very real concern of 
moral hazard with these lending policies, many of us are 
concerned that our taxpayers have been put in the position of 
subsidizing foreign economies which in turn subsidize our 
competitors. Do you feel it would be appropriate to in some 
manner to tie our loans to specific progress in receiving 
countries opening their markets to U.S. exports and the 
elimination of direct or indirect tariff barriers?
    Mr. Greenspan. That is a goodly part of what the IMF has 
been endeavoring to do. The issue of whether they have done it 
successfully is another question. There is just no doubt that 
it should be in the interest of the United States to open up 
world markets because the other side of our protectionism is 
other people's protectionism, and that should be as anathema to 
us as any we engender ourselves. So anything which opens up 
markets is to the mutual advantage of all trading partners.
    I would think that that is our policy in the sense that in 
all aspects of the foreign economic policy of the United 
States, as I understand it, it is an essential goal. I don't 
think that it has been compromised in a very significant 
extent, though I do grant you that there are particular 
instances when I would say that it is otherwise.
    Mr. English. Thank you Mr. Chairman. I yield back the 
balance of my time.
    Chairman Archer. Chairman Greenspan has now generously 
given us a little over 2\1/2\ hours of his time. The Chair is 
going to suggest that, with Mr. Greenspan's permission, that we 
will take one additional Member on the Minority side and one 
additional Member on the Majority side and then conclude this 
hearing this morning.
    Mr. Doggett.
    Mr. Doggett. Thank you for your very insightful comments. 
Am I correct that if the choice is between letting the 
surpluses buildup or enacting a tax cut, even a so-called 
growth-oriented tax cut, that your belief is unequivocal that 
we ought to build the surplus and reject the tax cut?
    Mr. Greenspan. That is correct, Congressman. At this 
particular stage, with the economy doing as well as it is and 
with investment moving forward as facilely as it is, the need 
for additional fiscal stimulus from the tax side, which we may 
need at some future time--and I am very supportive of that--we 
don't need as far as I can see at the moment. The advantages 
that I perceive that would accrue to this economy from a 
significant decline in the outstanding debt to the public and 
its virtuous cycle on the total budget process is a value which 
I think far exceeds anything else we could do with the money.
    Mr. Doggett. There has also been, as you are well aware, so 
much dissatisfaction with the Internal Revenue Code that some 
have advanced the notion that what this Congress ought to do is 
just set an arbitrary date and kill the sucker. My question is, 
what economic consequences or reaction of the financial markets 
should we as Members of Congress consider in deciding whether 
to set a day, say, December 31, 2002 or 2003, and to declare 
that the Internal Revenue Code is dead without having 
previously enacted a replacement Code?
    Mr. Greenspan. That is the toughest question I have been 
asked all morning.
    Obviously if you do not have a Code in place to replace it, 
and I am one of those who have great sympathy for those who 
want to make lots of changes in that Code, it is not a good 
idea. That does not mean that one should not move in the 
direction of significant alterations, but this is a process 
question as to whether in fact, which is the reason it is a 
tough question, you throw out the Code and you are going to 
have to focus one's attention to get a new one by the effective 
date. That concentrates the mind and probably is a great 
incentive to doing that. Whether you want to take that risk is 
not a judgment I am going to make.
    Mr. Doggett. If we stay within the existing budget caps 
adopted under the Balanced Budget Act, is more investment in 
effective education and job training likely to produce 
increased labor productivity and thereby our national economic 
growth rate?
    Mr. Greenspan. I agree with those who have difficulty 
finding relationships between the quality of the education that 
we engender in this society and the amount of cash that we 
direct to it. Structural changes--indeed, some of the issues 
that the President raised last night I thought were to the 
point--are more relevant than the issue of cash.
    Mr. Doggett. Thank you so much. I yield back.
    Chairman Archer. The Chair is always pleased whenever a 
Member yields back any time. Thank you so much.
    Mr. Chairman, before I recognize Mr. Portman, who will be 
the last inquirer, let me be sure to crystallize your responses 
as I understand them. And frankly, I thought I understood them 
before you even appeared today because you and I have talked 
about this before.
    Your number one preference for the surplus would be to let 
it stay in place and neither spend it nor give tax reduction.
    Mr. Greenspan. That is correct.
    Chairman Archer. Because leaving it there effectively 
reduces the national debt every year?
    Mr. Greenspan. And has significant positive economic 
consequences as a result.
    Chairman Archer. And I understand that. But knowing the 
proclivities of democracy and the Congress particularly, it is 
very unlikely that that will happen, and I think history is a 
pretty good barometer of that. And in the event that it does 
not happen and you had to choose between a tax reduction and 
simply new spending programs, what would you choose?
    Mr. Greenspan. Tax reduction.
    Chairman Archer. I just wanted to make that clear, because 
I understood you to say that this morning.
    Mr. Portman.
    Mr. Portman. I want to commend Chairman Archer for holding 
the hearing and for allowing not only the Members of this panel 
but the public to hear your insights. I have found it 
fascinating. We have learned a lot today.
    Trying to summarize your prescription for the future, I 
would say it is that net increased savings effectively invested 
in productive assets should be our goal. On Social Security and 
retirement savings generally, I would like to get your input. 
You probably know more about it than anybody, having chaired 
the Greenspan Commission and having thought about it now in the 
larger perspective of our country's economic growth into the 
next century.
    Often we treat Social Security reform in isolation and 
don't focus as much on the other two legs of the so-called 
three-legged stool, personal savings, IRAs, and then employer-
sponsored plans. And in fact, last year and the year before 
there were more benefits paid through the employer based 
pension system than there were in Social Security benefits. So 
it is an important part, critical part of our overall 
retirement savings.
    My concern is, retirement savings is not growing nearly 
fast enough. In fact it is flat in many areas. Among smaller 
businesses, as you probably know, with 25 or fewer employees, 
only 19 percent now offer any kind of pension plan, 401(k), 
profit sharing or any other vehicle. Congress has done a pretty 
good job on the personal savings side, particularly with the 
Roth IRA and some other vehicles. But we tend to focus on 
Social Security in isolation, a bit on the personal savings 
side, and we have left the employer-sponsored plans without 
effective simplification and effective expansion that we should 
indeed be providing.
    I know that you are not necessarily in a position to talk 
about specific legislation today, but I would like to hear from 
you as to what you think about ideas to indeed expand the 
pension system through simplification, so that smaller 
businesses can get involved without the same cost burdens and 
liabilities attached to the current system; and, second, 
through increasing the ability of people to set money aside and 
increasing the ability for employers to match those funds by 
increasing contribution limits. I wonder if you would care to 
comment on that kind of a proposal?
    Mr. Greenspan. Congressman, I agree with you that basically 
we tend to focus on Social Security as though it is independent 
of the overall means of retirement incomes for the population 
as a whole. Indeed, what we find is that retirees over a broad 
segment of our society have multiple forms of resources to 
carry them through their retirement, although there is not a 
insignificant proportion of the elderly who have only Social 
Security.
    But I do think it is important to recognize that the same 
forces which are creating problems for the public sector, 
Social Security, are also the identical problems that are 
focused on the private sector; namely, that we are going to 
have to increase the aggregate amount of resources for our 
retirement population because it is becoming so large and will 
become larger. The presumption that it can all be financed 
through the public Social Security system, I think, is a 
mistake. We ought to look at all various segments of retirement 
funding. I have no question that there is probably a 
significant possibility for major improvements in our private 
retirement system laws which so affect employer contributions 
and employer capabilities of setting up various different types 
of funds.
    Mr. Portman. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman Archer. The Chair regrets and apologizes to all 
the Members who have not been able to inquire. At the same 
time, Chairman Greenspan has been most generous with his time 
today.
    We are extremely grateful for your coming to visit with us 
at the beginning of this new Congress. Again, my compliments to 
you for the marvelous work that you have done over the years. 
We expect nothing but the best from you in the years ahead.
    Mr. Greenspan. Thank you very much Mr. Chairman.
    Chairman Archer. Thank you. The Committee will stand 
adjourned. We do have another hearing tomorrow morning.
    [Whereupon, at 12:45 p.m., the hearing was adjourned.]
    [A submission for the record follows:]

Statement of National Association of Manufacturers

                              Introduction

    Over the last eighteen months, there have been a series of 
shocks to the world economy. The main ones were the recession 
in Asia, which started in the summer of 1997, followed by a 
similar collapse in Russia. There is now a serious risk of the 
same type of scenario in Latin America. Further, the world 
economy will be hit by the Y2K problem in less than a year.
    Through it all, the American economy has continued to hold 
up. This reflects both some key underlying strengths--mainly 
high productivity--and the fact that the Federal Reserve has 
cut interest rates. So far, the United States seems to be 
riding out the global storm, albeit at the expense of large 
trade deficits. Given the threat that the recession overseas 
will worsen, it would be a good idea to take out some 
insurance, and cut taxes. To this end, we recommend a cut of 10 
percent in personal and corporate tax rates.

                             Global Shocks

    The 1997 recession in Asia was the largest shock that has 
hit the world economy since the Gulf War. The crisis was 
largely unanticipated, and involved a massive flight of capital 
from the region. In 1996, net private capital inflows into the 
Pacific Basin (South Korea, Indonesia, Malaysia, Thailand and 
the Philippines) came to $93 billion. In 1997, the net private 
capital outflow was $12.1 billion, a swing of $105 billion, 
equal to 11 percent of the GDP of these countries. The collapse 
was not only unanticipated, it was much deeper than expected.
    The situation in Asia was worsened by the fact that Japan 
underwent its second recession in a single decade. Japan's 
initial slide into recession occurred in 1992-93, coming in the 
wake of the collapse of the Nikkei and a decline in real estate 
values. Macroeconomic policy was too tight at the time, slowing 
the recovery. The government has been slow to enact stimulative 
measures, relying more on public works, rather than demand-
expanding tax cuts. As a result, Asia is likely to remain in 
recession in 1999, and emerge only slowly in the year 2000.
    The second shock that hit the world financial system was 
the collapse in Russia in the summer of 1998. The causes were 
similar in some ways to Asia: there was a massive flight of 
capital, leaving Russia short of foreign exchange. As a result, 
Russia defaulted on its foreign debt and underwent a disorderly 
devaluation.

                      The Threat in Latin America

    The most serious threat at the current time is that a 
similar crisis could take place in Latin America. The focal 
point is Brazil, which was forced to devalue on January 13. 
Last summer, Brazil was hit by the crisis in Russia, and began 
to suffer the same kind of capital flight. In only two months, 
Brazil's foreign exchange reserves dropped by nearly $30 
billion (from $70 billion in July). This created the 
preconditions for an Asia-style implosion. As of November 13, a 
$42 billion IMF rescue package has been announced for Brazil. 
However, this does not seem to have stabilized the situation.
    One aspect of the problem is that Brazil still has a budget 
deficit of more than 7 percent of its GDP. The size of the 
deficit has led to fears that at some point it may be financed 
by money creation, leading to a return to high inflation. 
Fiscal restraint will be difficult because it will slow the 
economy and lead to greater unemployment in the short run. A 
further aspect of the problem is that Brazil's inflation rate 
has been driven in part by a series of devaluations. This 
country chose to try to stabilize its exchange rate in part to 
be able to control inflation. However, the exchange rate could 
not be maintained. In the short term, the United States and 
other Western countries need to make additional credit 
available to Brazil. In the long run, the success of the 
Brazilian stabilization program will depend on whether they are 
able to reduce their budget deficit, and keep devaluations 
orderly.
    If Brazil were to go into recession, this would inevitably 
drag down much of Latin America. The Southern Cone countries--
Argentina and Chile--are currently stable, but would undergo 
downturns if the Brazilian market contracted. Venezuela also 
seems politically unwilling to retrench, and may try to 
reflate. As a result, Latin America could be in for a period of 
stagnant growth and possibly higher inflation.
    This would not be favorable for the United States. Brazil 
represents only 2 percent of the American export market, but 
Latin America (less Mexico) represents more than 10 percent. 
Adding in Mexico, the Latin American region comprises 20 
percent of U.S. exports. Stagnant growth in Latin America would 
further slow the American economy, particularly in trade-
sensitive manufacturing sectors that have already been hurt by 
the recession in Asia.
    It would also not be favorable in a geopolitical sense. If 
Latin America were to collapse, this would leave North America 
and Western Europe as islands of prosperity in a sea of 
recession stretching from Japan, through the Pacific Basin, 
Russia and South America. In other words, a large part of the 
Third World would be in recession. A situation in which most of 
the world's wealthy countries (excluding Japan) are prosperous 
while most of the world's poor countries are in recession is 
not desirable. This would lead to widespread resentment against 
the West, and possibly lead to a backlash against free market 
policies in other parts of the world.

              Why the United States Should Avoid Recession

    There are a series of underlying strengths that should keep 
the United States out of recession. The most important is 
steady growth in employment and incomes. Payrolls increased by 
over $2 million in 1998. As a result, consumer demand should 
remain buoyant in 1999.
    A second factor was the Federal Reserve's astute response 
to the global shocks. As the dimensions of the crisis became 
evident in August, the Fed lowered short-term interest rates by 
75 basis points in three stages. These demonstrated Chairman 
Greenspan's commitment to containing the crisis. The rate cuts 
are important for another reason. The world economy needs more 
dollar liquidity. As monetary growth in the United States 
speeds up, the trade deficit injects more of this liquidity 
overseas.
    A third factor has to do with a higher rate of productivity 
growth. In the early 1990s, there was some debate as to the 
rate of productivity growth that could be sustained. Pessimists 
argued that this was only in the range of 1.1 percent per year. 
In 1996, we forecast that the rate of productivity growth could 
be sustained at 1.6 to 1.8 percent per year. This was based 
primarily on a speed-up in the rate of technological advance. 
One item of evidence supporting this was that national income 
was growing faster than national product, indicating hidden 
productivity growth.
    Since then, revisions to the national income accounts have 
largely validated the more optimistic forecast. In mid-1998, 
the Commerce Department published benchmark revisions to GDP, 
which demonstrated additional output growth and lower inflation 
in 1995-97. Simultaneously, the Bureau of Labor Statistics 
revised the 1996 productivity number up to more than 2 percent. 
Moreover, the speed-up in productivity has been sustained. Over 
the last four quarters, the average rate of productivity growth 
in nonfarm business has been 1.7 percent. Productivity of 
course does not operate only on the supply side. The path of 
wages--or more specifically the corridor within which wage 
increases do not raise inflation--depends on the rate of 
productivity growth.

                        Elements of The Forecast

    Here, we discuss selected elements of the forecast. For 
1999, we project GDP growth at 2.3 percent for the year. This 
represents a substantial slowdown from the 3.6 percent pace 
that we probably achieved in 1998. However, even this rather 
guarded scenario is contingent on at least one more cut in 
interest rates by the Federal Reserve, and on a successful 
resolution of the situation in Latin America.
    The strongest part of the economy is consumer spending, 
reflecting increase in incomes from higher employment and 
wages. Lower interest rates lead to an improvement in household 
balance sheets, due mainly to lower mortgage costs. The savings 
rate essentially remains at zero, or slightly below. Consumers 
spend all the income they take in, and continue to draw down 
financial assets.
    Business investment hands in a mixed performance. Despite 
lower interest rates, residential construction declines, due to 
excess capacity. Nonresidential structures rebounds slightly, 
but this is largely a reflex response to the decline in 1998. 
The level of investment in nonresidential structures in 1999 
remains lower than it was in 1997. Business equipment also 
slows down. This reflects excess worldwide capacity and a 
narrowing of profit margins.
    The trade deficit continues to deteriorate, although the 
rate of deterioration is not as bad as in 1998. The exchange 
rate falls, but the improvement in competitiveness is swamped 
by the continuing shortfall in demand overseas. The effect on 
balance is to reduce GDP growth by slightly less than a 
percentage point.
    The inflation rate remains low. High productivity growth 
and the arbitrage of world prices into domestic prices keeps 
the GDP deflator at only 1.5 percent.
    Corporate earnings remain under pressure, primarily from 
the lack of pricing power. Prices in some sectors are actually 
declining, while in other sectors they are not rising as 
rapidly as labor costs. With the economy essentially at full 
employment (unemployment roughly at its natural rate), 
corporate margins are being squeezed. As a result, corporate 
profits decline slightly in 1998, and then achieve only a minor 
increase in 1999.
    If a collapse in Latin America were to occur, the situation 
would be less favorable. We ran econometric simulations in 
which we assumed that Brazil falls into a deep recession and 
drags the rest of Latin America down with it. Even if the 
Federal Reserve loosens interest rates further at this 
juncture, it is too little, too late. As the experience of Asia 
has demonstrated, it is difficult to bring countries out of 
recession after they have already undergone financial 
collapses.
    In this case, the growth rate initially slows to 2 percent 
in the first half of 1999, and to 1.6 percent in the second 
half as the trade deficit climbs. The United States would not 
actually go into recession, but instead would lapse into a 
period of near-stagnation.
    A final risk is the Y2K problem, which of course is outside 
the range of the forecast. This is analogous to a natural 
disaster. If the problem is pervasive, it would lead to supply 
disruptions, forcing firms to divert resources into repairing 
computer systems. The most likely outcome is that this will be 
another in a series of shocks that have slowed the world 
economy since mid-1997.

                          Policy Implications

    The downside risks have two major policy implications. The 
United States has to maintain a loose monetary policy in order 
to provide adequate liquidity to the world. Further reductions 
in interest rates are needed.
    Congress, however, should provide additional stimulus by 
enacting a tax cut. Specifically, we recommend a 10 percent 
reduction in individual and corporate tax rates to raise 
consumer demand and keep spending strong over the next two to 
three years. Even in the event of a severe recession overseas, 
or disruptions from the Y2K problem, the United States will be 
able to maintain stable growth and full employment. At the same 
time, faster growth will enable the United States to act as a 
locomotive for the rest of the world economy, and for the 
Western hemisphere in particular. This will speed up recovery 
overseas.
    To gauge the impact of this tax cut on the economy, we ran 
econometric simulations in which the rate reductions were 
assumed enacted in the second half of 1999. In the year 2000, 
the growth rate of GDP increases by 0.9 percent, and in 2001, 
it increases by 1.2 percent. The level of GDP increases by $130 
billion (or 1.7 percent) in 2001, and shows a final gain of 
$166 billion, or 2.1 percent in 2002. The static cost of this 
tax cut is roughly $80 billion a year in 2000-01, but because 
of higher growth, the dynamic revenue cost is smaller. We 
estimate the dynamic revenue cost at $55 billion a year.
    There are other reasons to cut taxes at the current time. 
The burden of taxation is now at a post World War II high. The 
ratio of total taxes collected to GDP is currently 32 percent, 
compared to 25 percent in the late 1950s. We also estimated the 
increase in the burden of taxation on workers, relative to 
their incomes. From 1959 to 1997 the average tax burden 
increased from 24 percent in 1959 to 36 percent in 1997. 
Clearly, this situation calls for tax relief.
    In recommending a cut in income tax rates, we do not of 
course rule out cuts in other types of taxes. For instance, we 
argue that converting the Social Security system to a new 
system based on individual retirement accounts would also yield 
substantial economic benefits. The FICA tax has lowered the 
level of GDP, primarily by slowing growth in the labor force. 
Our econometric analyses indicate that if the FICA tax had not 
been raised, the level of GDP would be significantly higher 
today. For instance, if the FICA tax rate had not been 
increased during the period from 1984 onward, real GDP would 
have been higher by over $80 billion in 1997, while employment 
would be higher by 1 million. By implication, if Social 
Security were privatized, the economy would emerge with a 
higher level of GDP and employment in the early twenty-first 
century.
                              Conclusions

    The economy is slowing down, following three years of 
strong growth in 1996-98. At the same time, there is a risk 
that the recession overseas will spread to Latin America in 
1999. Our policy recommendations are twofold. First, monetary 
policy should be loosened through additional cuts in interest 
rates. Second, taxes should be reduced through a 10 percent 
rate cut. For the time being, the most important priority is to 
enact tax relief to maintain economic growth, and take out some 
insurance against the threat of a slowdown. Over the long run, 
Congress should draft legislation converting Social Security to 
a system of individual retirement accounts.

                                  <all>

</pre></body></html>
